<html>
<title> - WEATHERING THE STORM: HOW CAN WE. BETTER COMMUNICATE WEATHER TO ENHANCE COMMERCE AND SAFETY?</title>
<body><pre>[Senate Hearing 114-101]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-101

                    WEATHERING THE STORM: HOW CAN WE
                       BETTER COMMUNICATE WEATHER
                    TO ENHANCE COMMERCE AND SAFETY?

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                            U.S. GOVERNMENT PUBLISHING OFFICE
97-369 PDF                       WASHINGTON : 2015                            
____________________________________________________________________________________       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8cebfce3cceff9fff8e4e9e0fca2efe3e1a2">[email&#160;protected]</a>  
      
       
       
       
       
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 22, 2015...................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................     2
    Prepared statement...........................................     4
Statement of Senator Schatz......................................    25
Statement of Senator Klobuchar...................................    27
Statement of Senator Sullivan....................................    29
Statement of Senator Peters......................................    32

                               Witnesses

Dr. Jay Trobec, Chief Meteorologist, KELO-TV.....................     5
    Prepared statement...........................................     7
Ron Sznaider, Senior Vice President, Weather Division, Schneider 
  Electric.......................................................     8
    Prepared statement...........................................    10
Dr. Kim Klockow, Postdoctoral Researcher, University Corporation 
  for Atmospheric Research.......................................    13
    Prepared statement...........................................    15
Don Hermey, Chief, Emergency Management, Manatee County, 
  Bradenton, Florida.............................................    18
    Prepared statement...........................................    20

                                Appendix

Response to written question submitted to Dr. Jay Trobec by:
    Hon. Bill Nelson.............................................    35
    Hon. Cory Booker.............................................    35
Response to written questions submitted to Don Hermey by:
    Hon. Bill Nelson.............................................    36
    Hon. Cory Booker.............................................    37

 
                    WEATHERING THE STORM: HOW CAN WE.
                       BETTER COMMUNICATE WEATHER
                    TO ENHANCE COMMERCE AND SAFETY?

                              ----------                              


                       WEDNESDAY, APRIL 22, 2015

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:53 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune, Sullivan, Nelson, Klobuchar, 
Schatz, and Peters.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. This hearing will come to order. I want to 
appreciate Senator Nelson's willingness to start a little early 
today and for our witnesses for being so accommodating.
    We have to begin the hearing a little earlier than planned 
due to the Senate floor votes that were scheduled last night 
for 10:45 a.m. this morning, which is not necessarily a bad 
thing.
    It underscores the fact that the Senate is considering a 
host of legislative matters, and I think we are up to 155 roll 
call votes that have already been called so far this year. With 
the eight that we are going to have today on human trafficking 
and related amendments, it is going to bring the number of 
recorded votes up to 163.
    I appreciate everybody's flexibility. For the information 
of my colleagues, we plan to keep rolling during the two floor 
votes that begin at 10:45, which may require a few of us to 
alternate as questions are posed to our witnesses, but that is 
a better alternative than adjourning and then trying to 
restart.
    Increased computing capacity, better models, and more 
observations have all contributed to dramatic improvements in 
weather forecasting. Weather forecasts are no longer just a 
best guess but are reliable enough that emergency managers can 
preposition assets before major storms and school 
administrators may cancel classes before the snow even starts, 
sometimes to the chagrin of parents.
    The private sector also uses improved weather forecasts to 
run businesses more efficiently. Decisions about when to apply 
fertilizer or how much to water a field can be informed by 
accurate forecasts. In addition, as our witness today from 
Schneider Electric can tell us, better forecasts can be 
integrated with smart thermostats to help homeowners and 
businesses save energy and money.
    Of course, even with these advances, predicting weather 
across the country can still present a challenge for even our 
best meteorologists. This is certainly true in my home state of 
South Dakota, where Rapid City earned the distinction of having 
the ``least predictable'' weather in the nation this year.
    Spearfish holds the ultimate weather bragging rights. On 
January 22, 1943, the temperature was -4 degrees at 7:30 in the 
morning. Two minutes later, the temperature had climbed to 45 
degrees. After briefly hitting a balmy high of 54 degrees, the 
temperature dropped back down to -4, all in less than a 2-hour 
time span.
    Another issue faced by South Dakotans and many Americans is 
drought. While we cannot avoid droughts, better forecasts about 
when we are heading into persistent dry or wet periods can help 
people make decisions that may reduce the extent of the 
resulting economic damages.
    As we consider ways to continue improvements in 
forecasting, we should also examine how those forecasts are 
communicated. This is especially true for extreme weather 
warnings when there is no time for mistakes.
    Advance warnings can save countless lives, but tragically 
people still die even when the forecasts are accurate. Research 
shows that certain warnings create more effective warnings. In 
light of this research, I believe it is time for the National 
Weather Service to reevaluate how it issues warnings for severe 
weather.
    In the coming weeks, I plan to introduce bipartisan weather 
legislation. It will focus on improving seasonal predictions so 
individuals, government, and businesses can make more informed 
decisions. It will also seek to improve our severe weather 
warning system so that additional lives can be saved.
    This legislation could also improve the ``research to 
operations'' pipeline, create a more effective National Weather 
Service, and enhance satellite governance.
    As this committee evaluates opportunities to improve 
weather modeling and forecasts and the way we communicate about 
weather events, I look forward to working with my colleagues 
and stakeholders in the weather community.
    I want to turn now to the distinguished Ranking Member of 
this committee, the Senator from Florida, for any opening 
remarks he would like to make.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. In the early 
1990s--Florida, which is quite accustomed, we are a peninsula 
sticking down into the middle of what is known as ``Hurricane 
Highway'' but we had not had a lot of direct hits by the big 
ones.
    Here comes one the first part of the season, middle of 
August, named Andrew, headed straight for the southern part of 
the peninsula. Hurricane Andrew ended up being categorized as a 
Category 4, that is up to 145 miles per hour.
    Subsequent analysis shows that it actually exceeded that, 
so it would be a hurricane Category 5. It spared us because if 
it had turned one degree to the north, it would have hit the 
Dade County/Broward County line, a highly urbanized area. 
Instead it went on a bee line for South Miami/Dade County in a 
relatively, at that point, unpopulated part.
    Yet, its consequence was that it took down the entire 
homeowners' insurance marketplace in the entire state of 
Florida because of the insurance companies that went bust, and 
consequently the insurance companies that fled the state of 
Florida. That was just one consequence.
    If it had not been for a courageous local weather 
forecaster staying on the air and sounding the alarm exactly 
where the hurricane was going, the devastation would have been 
so much more in loss of life.
    When it hit downtown Homestead, south of Miami, indeed we 
learned a lot. We learned that a whole new community that had 
been thrown up that did not have the building codes, it was 
absolutely ripped apart. In downtown Homestead, Florida, the 
only two structures remaining was the bank and an old Florida 
cracker house which was built back in the 1920s to withstand 
those kinds of ferocious winds.
    I remember running into the head of Habitat for Humanity, 
and he told me that he had a Habitat bumper sticker on his 
briefcase, and when he would go through the Miami Airport, 
people would walk up to him and say thank you so much, thank 
you so much, all the Habitat houses held up, how do you do 
that.
    He said from inexperience. They would say what do you mean, 
inexperience. He said since we build houses with volunteers, 
instead of putting one nail, they put 10 nails.
    [Laughter.]
    Senator Nelson. Forecasting weather is so important to us. 
We have since put up a G-IV NOAA that flies at the top of the 
hurricanes. I have been on those missions. They drop 
instrumented packages called ``Sondes'' from 45,000 feet above 
the hurricane, flying at the top of the hurricane, so that you 
can get measurements. That has improved the accuracy 15 
percent.
    There is so much more to come. There are so many more 
satellites that we have to put up. NASA builds them. NASA 
launches them. NOAA operates them.
    We have some folks that do not like climate change around 
here. The fact is that measuring the weather and the changes in 
the climate are going to help us with regard to forecasting.
    Take, for example, peanut growers in South Georgia and 
North Florida, they can increase their crop yield and decrease 
fertilizer if they have better temperature and precipitation 
outlooks for that coming growing season.
    Mr. Chairman, I just wanted to set the table. I am going to 
stop and insert the rest of my opening statement in the record 
so we can get on in this day that we have so many competing 
demands. Thank you.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Thank you, Chairman Thune, for calling this hearing today.
    Devastating events such as Hurricane Andrew in 1992, Hurricane 
Katrina ten years ago and Hurricane Sandy in 2012 provide stark 
reminders that the weather is much more than just a topic of casual 
conversation.
    Keeping the public informed of the risks posed by hazardous weather 
is critical to protecting lives, property and infrastructure.
    The National Weather Service performs an invaluable service by 
providing essential weather, water and climate forecasts and warnings.
    I would also be remiss if I did not mention the role NASA plays in 
building and launching satellites and next generation instruments that 
give our forecasters invaluable weather data. This important 
partnership between NASA and NOAA is what brings us the data.
    But these agencies cannot do it alone.
    Emergency managers, local officials, television meteorologists and 
private companies all help disseminate weather information on a daily 
basis.
    Accurate forecasts are not only important for day-to-day decision-
making, but they are also important for business decisions.
    For example, one study suggests that peanut farmers in south 
Georgia and north Florida can increase their crop yield and decrease 
fertilizer if they have better temperature and precipitation outlooks 
for the growing season before they plan their crops.
    During El Nino years, farmers should plant peanuts later in the 
season--and during La Nina years, they should plant sooner.
    The science is almost ready to be able to give us more precise 
seasonal forecasts.
    Right now, shorter-term ``weather'' forecasts can give us a fairly 
accurate picture of the next two weeks. And long-term ``climate'' 
outlooks can give us the likely temperature and precipitation 
information from about a month to about a year. By continuing to invest 
in the science of our oceans, the climate and the weather, I believe we 
can close the gap between two-week weather forecasts and one-month 
climate outlooks.
    The sooner and more accurately that we can warn schools, nursing 
homes, and hospitals that the ``big one'' is on the way, the more 
prepared and resilient our communities will be.
    Let me give you some examples of the benefits of improved weather 
forecasts.
    In Florida, recurrent flooding is a major issue. At high tide, 
ocean water routinely covers the streets of Miami Beach.
    Studies suggest that as little as one hour of lead time can result 
in a 10 percent reduction in flood damages, yielding benefits of $243 
million annually.
    The newest generation of Doppler radars--called NEXRAD--enables 
meteorologists to detect the formation of tornadoes before they touch 
down--reducing deaths by 34 percent and injuries by 45 percent.
    And by concerted Federal investment, the hurricane forecast has 
improved by 20 percent since 2008. This remarkable advance in accuracy 
and precision will absolutely save lives and property.
    I want to welcome each of our witnesses for being here today. I 
especially want to thank Don Hermey for traveling from my home state to 
give us some insight on how he helps prepare residents of Manatee 
County for extreme weather.
    I look forward to hearing all their testimony on how we can go even 
further in optimizing weather products and more effectively communicate 
to end-user communities.
    Thank you.

    The Chairman. Thank you, Senator Nelson. I look forward to 
as colleagues arrive getting an opportunity to question our 
witnesses. We have a great panel, and I want to thank you all 
for being here today, and want to officially introduce who 
these folks.
    Dr. Jay Trobec is the Chief Meteorologist at KELO-TV in 
Sioux Falls, South Dakota. Mr. Trobec has been with KELO since 
1985. I personally rely on him to let me know what weather to 
expect when I am home in Sioux Falls. I know only of a few 
states in the country that pay attention year round to the 
weather as much as we do in South Dakota. It is not really 
weather, it is news in our state. We deal with it year round, 
and of course, our very livelihood depends upon it.
    Jay Trobec can either make your day or break your heart, 
depending on whatever the scenario may be. He is very accurate. 
He is always within a degree or two, only misses them by that 
far [indicating]. Actually, does a great job. I know he has a 
national profile on a lot of these issues in which he shares 
his expertise with people around the country.
    Mr. Ron Sznaider is the Vice President for Cloud Services, 
Weather, at Schneider Electric. I look forward to hearing about 
how weather data can be used to enhance commerce and safety.
    Dr. Kim Klockow is a Postdoctoral Researcher at the 
University Corporation for Atmospheric Research. She is an 
expert in risk communication, and will tell us about how people 
respond to severe weather warnings, and ways we can improve how 
warnings are communicated.
    Mr. Don Hermey is the Chief of Emergency Management for 
Manatee County, Florida, and probably can share some insights 
along the lines of those we just heard from the Senator from 
Florida. I look forward to learning about how he uses weather 
data to prepare for emergencies.
    Thank you all for being here today. We will start on my 
left and your right with Dr. Trobec and proceed accordingly, 
and we look forward to hearing from you. Jay?

       STATEMENT OF DR. JAY TROBEC, CHIEF METEOROLOGIST, 
                            KELO-TV

    Dr. Trobec. Thank you very much, Senator Thune, Senator 
Nelson, thank you very much for your comments. We would like to 
thank the Committee for inviting us here today to talk about 
something that we are pretty interested in at least at this 
table, and greetings to my colleagues here at the table.
    I am a broadcast meteorologist, and that is a profession 
that just a few decades ago was mostly kindly gentlemen with 
baritone voices, occasionally accompanied by a weather puppet 
or animal mascot. I am here to tell you we are not your 
grandma's TV weatherman any more.
    For starters, about a fifth of us are female, 600 of us are 
certified by the American Meteorological Society, which has 
verified our meteorological degrees or course work, given us a 
rigorous written exam, and had our on air work judged by a 
panel of our peers. Others of us are certified by the National 
Weather Association.
    These days, a television meteorologist is a real 
meteorologist, with a degree or significant education. We no 
longer rip and read a forecast from a teletype from the 
National Weather Service.
    We do our own scientific analysis of the atmosphere, and we 
have the tools--I do not know if you know this, but about 250 
television stations actually own and operate their own weather 
radar.
    Both the AMS and the NWA hold national conferences at which 
broadcasters, National Weather Service personnel, and other 
important members of our public/private/academic weather 
community meet to share knowledge and information face to face 
with each other. These in-person meetings are essential because 
they make our weather enterprise stronger.
    Before we can talk about communicating weather or warnings 
or capitalizing on our weather intelligence, one thing is 
paramount. We must get the forecast right. We must get the 
forecast right.
    Every day, everyone of us is impacted directly or 
indirectly by that forecast, and toward that end, we are 
gratified that Congress has allocated the money to NOAA to 
increase our computing capacity for our weather models, and we 
are justifiably hopeful that this will help us close the gap on 
the European weather model which is widely perceived to be more 
accurate, unfortunately, than its American counterpart.
    What is the broadcaster's role in all of this? Well, we as 
a presumably familiar and trusted voice, try to skillfully 
communicate the weather with clarity and meaning to the public. 
In a way, we are translators, converting scientific language to 
every day English.
    Sometimes it is necessary for us to express uncertainty in 
the forecast, to honestly let the public know when there is a 
close call between different forecast possibilities.
    When significant weather threatens, as Senator Nelson was 
talking about, we have to anticipate and react to it. When 
there are warnings to pass along, broadcasters add value to 
those warnings by explaining the meaning to our viewers.
    For example, if there is a developing severe weather 
situation, we do things such as show and interpret frequently 
updated radar images, share reports from trusted witnesses, and 
broadcast live video images to bring the call of action message 
home in vivid terms. In sort, our mission is to do what no app 
can.
    As weather communicators, we are beholden to the laws of 
both meteorological science and social science. As my 
colleague, Kim Klockow, will tell you, even a good forecast 
poorly communicated is worthless.
    During times of weather crisis, we recognize the need to 
deliver a consistent message with our governments and private 
sector partners to speak with one voice. Social scientists tell 
us broadcasters that when people are confronted by conflicting 
emergency messages, they either freeze and do nothing or waste 
valuable time trying to gain additional information, and 
neither one of those is desirable.
    Initiatives such as NOAA's Weather Ready Nation reminds us 
that hazard preparedness begins long before an event happens, 
and the Becoming Second to None Report gives us a roadmap for 
improvement of our weather forecast system.
    We will get better even as the atmosphere reminds us that 
the margin for error is very small and very unforgiving. As we 
have experienced the last couple of winters, the difference of 
only a degree or two at cloud level or a degree or two at 
ground level can mean the difference between nuisance weather 
and a weather disaster.
    I also feel it is important to put today's discussion in 
just a little bit of perspective. It has been my privilege to 
attend meetings of the European Meteorological Society, 
France's International Weather Forum, and events of the World 
Meteorological Organization. As I talked to my colleagues, my 
weather colleagues, one thing becomes clear to me, and that is 
that our weather warning system in the U.S., our weather 
warning infrastructure, is the envy of the rest of the world.
    I think it says something about us as we gather here today 
to try to make something that is already the world's best even 
better. Thank you.
    [The prepared statement of Dr. Trobec follows:]

   Prepared Statement of Dr. Jay Trobec, Chief Meteorologist, KELO-TV
    I am a broadcast meteorologist . . . a member of a profession that, 
a few decades ago, mostly consisted of kindly gentlemen with baritone 
voices, occasionally accompanied by a weather puppet or animal mascot.
    But we are not your grandma's TV weatherman anymore. For starters, 
about a fifth of us are female.\1\ Six hundred of us are certified by 
the American Meteorological Society (AMS),\2\ which has verified our 
meteorological degrees or coursework, given us a rigorous written exam, 
and had our on-air work judged by a panel of our peers. Others of us 
are certified by the National Weather Association (NWA).\3\
---------------------------------------------------------------------------
    \1\ http://www.magid.com/node/159
    \2\ http://ametsoc.org/memdir/seallist/get_listofcbm.cfm
    \3\ http://nwas.org/seal/seal-holders.php
---------------------------------------------------------------------------
    These days a television meteorologist is a ``real'' meteorologist, 
with a degree or significant college education. We no longer ``rip and 
read'' a National Weather Service forecast from a teletype machine. We 
do our own scientific analysis of the atmosphere. And we have the 
tools: about 250 television stations own and operate their own weather 
radar.
    Both the AMS and NWA hold national conferences at which 
broadcasters, National Weather Service personnel, and other important 
members of the public-private-academic weather community meet to share 
knowledge and information face to face with each other. These in-person 
meetings are essential. They make our weather enterprise stronger.
    Before we can talk about communicating weather or warnings, or 
capitalizing on our weather intelligence, one thing is paramount. I 
think it is something the entire weather enterprise can agree on. We 
must get the forecast right. We must get the forecast right, because 
every day, every one of us is impacted directly or indirectly by the 
forecast. Toward that end, we are gratified that Congress allocated 
money to NOAA to increase the computing capacity for our weather 
models.\4\ We are justifiably hopeful this will help us close the gap 
on the European medium-range computer model (ECMWF), which is widely-
perceived to be more accurate than its American counterpart (GFS).\5\
---------------------------------------------------------------------------
    \4\ http://www.noaanews.noaa.gov/stories2015/
20150105_supercomputer.html
    \5\ Weather Services for the Nation: Becoming Second to None 
(National Academies Press, 2012), page 22.
---------------------------------------------------------------------------
    So what is the broadcaster's role in all of this? As a--
presumably--familiar and trusted voice, we try to skillfully 
communicate the weather with clarity and meaning to the public. In a 
way, we are translators--converting scientific language to everyday 
English. Sometimes it is even necessary for us to express uncertainty 
in the forecast, to honestly let the public know when there is a close 
call between different forecast solutions.\6\
---------------------------------------------------------------------------
    \6\ Completing the Forecast: Characterizing and Communicating 
Uncertainty for Better Decisions Using Weather and Climate Forecasts 
(National Academies Press, 2006).
---------------------------------------------------------------------------
    When significant weather threatens, we must anticipate and react to 
it. When there are warnings to pass along, broadcasters ``add value'' 
to them by explaining the meaning to our viewers. For example, if there 
is a developing severe weather situation we do things such as show and 
interpret frequently-updated radar images, share reports from trusted 
witnesses, and broadcast live video images to bring the ``call to 
action'' message home in vivid terms. In short, our mission is to do 
what no app can.
    As weather communicators, we are beholden to the laws of both 
meteorological science and social science. Even a good forecast--if 
poorly communicated--is worthless.
    During times of weather crisis, we have recognized the need to 
deliver a consistent message with our government and private sector 
partners--to speak with one voice. Social scientists tell us that when 
people are confronted by conflicting emergency messages they either 
freeze and do nothing, or waste valuable time trying to gain additional 
information. Neither is desirable.
    Initiatives such as NOAA's Weather-Ready Nation \7\ remind us that 
hazard preparedness begins long before an event happens. And the 
``Becoming Second to None'' report sets a road map for improvement of 
our forecast system. We will get better--even as the atmosphere reminds 
us that the margin for error can be slim and unforgiving. As we have 
experienced the last couple winters, the difference of only a degree or 
two at cloud level--or a degree or two on the ground--can mean the 
difference between nuisance weather and a weather disaster.
---------------------------------------------------------------------------
    \7\ http://www.nws.noaa.gov/com/weatherreadynation/
---------------------------------------------------------------------------
    But I also feel it is also important to put today's discussion in 
perspective. It has been my privilege to attend meetings of the 
European Meteorological Society, France's International Weather Forum, 
and events of the World Meteorological Organization. When I have spoken 
with my weather colleagues from other countries, one thing becomes 
clear to me: The weather warning infrastructure we have here in the 
United States is the envy of the rest of the world. I think it says 
something about us that we come together today in an effort to make the 
world's best even better.

    Senator Nelson. May I say something to the forecaster? 
Really, I want to underscore the importance of your position. 
It was that very courageous forecaster, Brian Norcross, at one 
of the local stations in Miami who saved hundreds of lives by 
staying on the air, and as people's houses were ripped apart, 
he was saying get into an inner room, et cetera. Brian was also 
a certified meteorologist who had a Master's degree in 
meteorology.
    That was the beginning of the new vanguard of which you 
represent, so thank you for your public service.
    The Chairman. Well stated. Thank you, Senator Nelson. Mr. 
Sznaider?

   STATEMENT OF RON SZNAIDER, SENIOR VICE PRESIDENT, WEATHER 
                  DIVISION, SCHNEIDER ELECTRIC

    Mr. Sznaider. Thank you, Chairman Thune and Ranking Member 
Nelson. I appreciate the opportunity to testify today. Again, 
my name is Ron Sznaider and I am the Vice President of the 
Weather Division at Schneider Electric.
    I am here today to provide information on commercial 
weather service activities and how working more closely with 
NOAA we can improve weather forecasting in this country.
    Schneider Electric is a global Fortune 300 company with 
170,000 employees in more than 100 countries and $30 billion in 
sales. We maintain the largest commercial business to business 
weather company in the U.S. We employ over 100 degreed 
meteorologists and have customers in all 50 states and the 
District of Columbia.
    Our weather solutions provide precision weather 
intelligence to businesses and small government entities. We 
build very close relationships with our clients so that we can 
better understand their needs and supply information different 
than what you typically see in consumer apps on your smart 
phone.
    The techniques that we use have resulted in our weather 
forecasts being independently rated number one in accuracy 
eight years in a row.
    We believe that a closer cooperation between NOAA and 
commercial weather services will benefit the science of weather 
forecasting and the communities who must address the weather 
challenges of today and tomorrow.
    From our perspective, NOAA's greatest strengths lie in 
weather and ocean modeling. No commercial weather service is 
likely to match NOAA in its ability to create these 
sophisticated computer prediction models.
    We also believe that NOAA should remain the authoritative 
source for the issuance of severe weather warnings for major 
events such as hurricanes and tornados.
    At Schneider Electric, we utilize over 70 different sources 
of information for our weather solutions, one of which is the 
NOAA open data model. We then take the NOAA data and add value 
by tuning and aligning it with specific customer needs.
    A few examples. We provide services to most large electric 
utilities, such as Florida Power and Light, to predict demand 
changes relative to weather conditions, and also work with 
other utilities in what is called ``mutual assistance'' so that 
they can share work crews for faster power restoration.
    In the northern states, we provide specialized road 
forecasts with specific guidance on which chemicals to use for 
the best timing and application rates so that it is both cost 
effective and environmentally friendly.
    In the southern states where we have some of the most 
intense lightning activity of anywhere in the world, we provide 
weather safety guidance to the PGA Tour and over 350 colleges 
and universities.
    In aviation, we provide specific forecasts for airlines, 
including a new turbulence forecast that an independent 
analysis found was more accurate than what the FAA currently 
uses.
    We also deploy weather stations to improve our forecast 
accuracy. Many of the Committee members may be familiar with 
DTN and the Progressive Farmer, widely used in U.S. 
agriculture.
    To my right is a map showing the locations of almost 3,000 
weather and soil sensors that we have recently deployed in 
rural America to help farmers make better day to day crop 
production decisions. The next generation of this sensor 
technology looks like this [indicating], and the data from 
these networks could be useful to enhance future NOAA drought 
and even tornado prediction models.
    Last, we provide over 1,000 state and local safety 
organizations information for uses as varied as advanced 
planning for urban flooding or prolonged heat waves.
    Today, I offer the following recommendations to drive new 
public/private partnerships designed to help deliver the best 
weather results to communities and taxpayers.
    First, there should be a better and more formal method to 
exchange knowledge and transfer technology between NOAA and 
commercial services.
    Second, NOAA should place more emphasis on the use of 
existing datasets from commercial sources.
    Third, NOAA should focus on its core competencies of 
weather modeling and issuance of weather warnings, and let 
commercial services focus on the downstream utilization of NOAA 
data into specialized solutions to solve end user problems.
    Last, as weather volatility increases, we believe that an 
increased investment is also necessary to help commercial 
applications more quickly reach their customers.
    I commend the Committee for considering weather-related 
legislation, and thank you for the invitation today, and look 
forward to answering your questions along with my colleagues 
behind me, Jim Block, who is also a certified consulting 
meteorologist and a Fellow of the American Meteorological 
Society. Thank you.
    [The prepared statement of Mr. Sznaider follows:]

      Prepared Statement of Ron Sznaider, Senior Vice President, 
                  Weather Division, Schneider Electric
Summary
    Public-private partnerships between commercial weather services and 
NOAA can improve weather forecasting in this country.

  <bullet> There should be a better and more formal method to exchange 
        knowledge and transfer technology between NOAA and commercial 
        services.

  <bullet> NOAA should place more emphasis on the use of existing 
        datasets from commercial sources.

  <bullet> NOAA should focus on its core competencies of weather 
        modeling and issuance of weather warnings, and let commercial 
        services focus on ``down-stream'' utilization of NOAA data into 
        specialized solutions to solve end-user problems.

  <bullet> As weather volatility increases, we believe that an 
        increased investment is also necessary to help commercial 
        applications more quickly reach their customers.

    Chairman Thune, Ranking Member Nelson, I appreciate the opportunity 
to testify today on the opportunities that commercial weather services 
are able to deliver to improve weather forecasting and further the 
goals of NOAA, the National Oceanic and Atmospheric Administration.
    My name is Ron Sznaider. I am the Senior Vice President of the 
Weather Division of Schneider Electric. I have been involved in 
commercial weather services functions for over 30 years. With me today 
is Jim Block, a colleague who is a Certified Consulting Meteorologist, 
as well as a Fellow of the American Meteorological Society.
    Schneider Electric is a global Fortune 300 company with 170,000 
employees world-wide, $30 billion in sales, and operations in more than 
100 countries. Schneider Electric is a specialist in energy management 
offering integrated solutions across multiple market segments, 
including Commercial and Residential Buildings, Industrials & Machine 
Manufacturers, Utilities & Infrastructure, and Data Centers & Networks. 
We maintain the largest commercial business-to-business weather 
forecasting and consulting organization in the United States, with 
customers in all 50 states.
    Our unique weather solution provides precision weather intelligence 
to our customers who include: the agriculture community, utilities, 
airports and airlines, professional and collegiate sporting 
organizations, transportation entities, emergency response providers, 
and local and state governments. We build relationships with our 
customers, with a distinct interaction that offers them information 
different from what you see in consumer apps on your smart phone. We 
enable decision makers with critical inputs to take quick and effective 
action to enhance safety and improve efficiencies. The unique 
technology we have developed improves weather forecasting and has been 
independently rated #1 in weather forecast accuracy eight years in a 
row.
    Better weather forecasts can have a significant impact on the 
economy. An analysis by the National Center for Atmospheric Research 
shows that over 16 percent of the aggregate U.S. economy is sensitive 
to weather on an annual basis. Additionally influence of routine 
weather variations on the economy could amount to as much as 3.4 
percent of U.S. gross domestic product (GDP). Other research shows that 
one-third of the private industry activities, amounting to $3 billion, 
have some degree of weather and climate risk. Our customers are most 
certainly impacted by weather. For example, in the utility sector, over 
75 percent of summertime power outages are weather related, and in the 
transportation sector about 25 percent of all accidents are connected 
to weather.
    Our challenge, and opportunity, is to provide our Nation with the 
best weather forecasting. We believe that closer cooperation between 
NOAA and commercial weather services can lead to a mutually beneficial 
partnership, and one that will benefit the science of weather 
forecasting, the taxpayers, and the communities who must address the 
weather challenges of today and tomorrow.
    We see that NOAA's greatest strength lies in weather and ocean 
modeling. No commercial weather service is likely to match NOAA in its 
ability to create these types of sophisticated computer prediction 
models. We also believe that NOAA should remain the authoritative 
source for the issuance of severe weather warnings for major events 
such as hurricanes and tornadoes.
    At Schneider Electric we utilize over 70 different sources of 
information to create our weather solutions, one of which is the NOAA 
open-data model. We then innovate and develop specialized technology to 
take the NOAA data and add value by fine-tuning it and aligning it to 
specific customer needs.
    Following are a few examples of real solutions we offer our 
customers today:

        Agriculture: We provide the weather information in the DTN and 
        Progressive Farmer services. We recently deployed a network of 
        almost 3,000 weather and soil sensors at farms, to help farmers 
        make better day-to-day crop production decisions. This 
        intelligence could also be useful to NOAA for future tornado 
        prediction models.

        Utilities: We provide services to most large electric utilities 
        such as Florida Power and Light, to predict demand changes 
        relative to weather conditions, and also work with other 
        utilities in what is called ``mutual assistance'' so they can 
        share work crews for faster power restoration. We also help 
        weather-enable the newest generation of Smart Grid solutions to 
        further optimize the Nation's electrical grid.

        Transportation: In the northern states we make road and 
        pavement forecasts and provide specific guidance of what 
        chemicals to use--just enough to do the job so that it is both 
        cost effective and environmentally conscious.

        Aviation: In Aviation we provide specific forecasts for 
        airlines, including a new turbulence forecast that can predict 
        the location and the effect of turbulence by aircraft type 
        (e.g., Boeing vs. Airbus). An independent laboratory found that 
        our forecast was 20 percent more accurate with 70 percent fewer 
        false positives than what the FAA currently uses. We believe 
        there is an opportunity to take advantage of this private 
        sector technology in the modernized airspace system envisioned 
        by the FAA with NextGen.

        Sports: Parts of the southern U.S., such as Florida, have some 
        of the most lightning activity of anywhere in the world. We 
        provide services to the PGA TOUR for lightning safety, along 
        with weather safety information to 350 colleges and 
        universities.

        Public Safety: We also provide over 1,000 state and local 
        public safety organizations with weather alerts and forecasts, 
        for uses as varied as urban flooding to planning for severe 
        heat spells.

    Schneider Electric recently published a study in which we concluded 
that individual weather events are becoming more extreme. But the good 
news is that there is much that can be done to plan for this increased 
volatility.
    As NOAA looks into the future of weather and the increased 
intensity of storms and events, cooperation with the private sector is 
even more essential.
    We offer the following recommendations to drive public-private 
partnerships and help deliver the best results to communities and 
taxpayers:

  1.  There should be a better and more formal method to exchange 
        knowledge and transfer technology between NOAA and commercial 
        services.

    <bullet> NOAA should be supportive of the creation of working 
            groups or advisory committees with the specialized 
            commercial business-to-business weather companies. This 
            group of private sector organizations has direct 
            interaction with end-user business and community customers, 
            and needs to be treated separately from the consumer facing 
            weather service providers. The focus should be on listening 
            to feedback and recommendations from the commercial sector. 
            An improved working dialog between these two groups that 
            will help accelerate innovation in the private sector, and 
            make better use of the NOAA models and data sets.

    <bullet> There needs to be a better knowledge and technology 
            transfer from NOAA to the commercial sector. If the private 
            sector can have clear and easy access to NOAA's technology 
            roadmap, they can plan ahead with their innovations and 
            ultimately maximize the investment in NOAA's R&D, by 
            bringing new solutions for American businesses and 
            communities into operational service.

    <bullet> NOAA should create a position responsible for interface 
            and technology transfer between NOAA and private sector

    <bullet> Quarterly meetings should be established between NOAA and 
            qualified members of a commercial steering group to 
            coordinate information exchange

  2.  NOAA should place more emphasis on the use of existing datasets 
        from commercial sources.

    <bullet> If NOAA wants to become a world leader in environmental 
            prediction models, then they should consider all available 
            data sets that can be utilized to initialize their models--
            including data sets from the private sector. All too often 
            use of new datasets are overlooked if not originated at 
            NOAA, or some other public institution. This is certainly 
            the case with space-based remote sensing platforms, but 
            also applies to surface datasets, such as the Agricultural 
            Weather and Soil Network data put in place by Schneider 
            Electric/DTN. In that example, in order for weather models 
            to be most accurate, it is critical to know the most 
            accurate soil temperature and the moisture fluxes from the 
            soil. Improved weather forecasts for tornadoes, as well as 
            weather prediction for agriculture and monitoring of 
            drought, can be achieved by integration of data sources 
            like this. Furthermore, environmental data from commercial 
            sources can often be more cost-effective to acquire, and 
            available much more quickly.

    <bullet> A regular and formal meeting or forum between government 
            and the private sector can make NOAA and other government 
            agencies aware of datasets that have been developed by 
            commercial services, with enough technical detail to allow 
            for legitimate evaluation by government agencies. NOAA 
            should provide honest and objective evaluation of these 
            available data sets for potential use in their R&D.

  3.  NOAA should focus on its core competencies of weather modeling 
        and issuance of public warnings of hazardous weather 
        conditions, and let commercial services focus on ``down-
        stream'' utilization of NOAA data in their solutions to solve 
        end-user problems.

    <bullet> The private sector is better positioned to innovate around 
            an existing customer base that leverages many different 
            services from a given company. This customer intimacy 
            better positions private sector companies to develop new 
            and innovative solutions that are in best alignment with 
            end-user needs. NOAA will not realistically be able to 
            provide the same level of operational service that is 
            expected, and will never have the breadth of offers (many 
            non-weather related) that the private sector can provide 
            into a given market segment.

    <bullet> Private sector companies do not have the resources or 
            bandwidth to develop and refine the numerical prediction 
            modeling and datasets that NOAA does.

    <bullet> Today, NOAA spends too much time and effort on the 
            distribution and attempts to customize its products, at the 
            expense of weather models and observation infrastructure 
            that could ultimately enhance public safety. Encouraging 
            NOAA to focus on its core competencies will ensure that 
            commercial services can make the scientific and operational 
            advances from NOAA translate better into effective 
            solutions made available to businesses and consumers as 
            quickly and as inexpensively as possible.

    <bullet> Government agencies that utilize weather information in 
            their internal processes should be required to review and 
            assess feasibility of use of commercially developed 
            solutions if/when superior results can be achieved. 
            Example: Schneider Electric's new generation turbulence and 
            aircraft icing solutions should be reviewed by the FAA for 
            potential use in upgrading national airspace safety. This 
            solution could be further improved by full use/integration 
            of NOAA modeling input.

    <bullet> NOAA should acknowledge the commercial weather industry is 
            a viable and critical component to extract value from NOAA 
            R&D activities and bring them to the marketplace. NOAA 
            should not create new decision-support solutions 
            duplicitous to existing commercial offers, but instead 
            should remain focused on improving upstream modeling and 
            improving the accuracy of severe weather alerts.

  4.  As weather volatility increases we believe that an increased 
        investment is necessary in helping commercial applications more 
        quickly reach their customers.

    <bullet> NOAA should include commercial services in its research, 
            planning and routine processes, and be willing to invest in 
            measures such as frequent and routine meetings with the 
            private sector to ensure that its R&D output is able to 
            benefit the public as quickly as possible.

    <bullet> Grants and PPP projects into the private sector could 
            accelerate investment in commercial services and spur new 
            innovation.

    <bullet> Funding for commercial end-user innovation should be 
            allocated, for specialized and qualified commercial weather 
            companies to compete for, all leveraging and maximizing 
            inputs from NOAA models.

    <bullet> These actions recommended for knowledge and technology 
            transfer require a very modest investment, but one that can 
            pay enormous dividends for the American public in the form 
            of better and faster alerts and warnings, and improved 
            forecast accuracy.

    <bullet> Innovation grants should be made available for commercial 
            entities to compete, with purpose of maximizing leverage of 
            NOAA data into superior end-user solutions in a coordinated 
            way.

    We understand that the House Science Committee passed legislation 
that deals with NOAA's interaction with commercial satellites (HR 
1561). We hope that the Senate will also examine downstream use of NOAA 
data, and will focus on collaboration between NOAA and providers like 
us, who deliver product to the end-user.
    We commend the Committee for considering weather-related 
legislation, and thank you for the opportunity to speak to you today.

    The Chairman. Thank you, Mr. Sznaider. Dr. Klockow?

           STATEMENT OF DR. KIM KLOCKOW, POSTDOCTORAL

               RESEARCHER, UNIVERSITY CORPORATION

                    FOR ATMOSPHERIC RESEARCH

    Dr. Klockow. Chairman Thune, Ranking Member Nelson, and 
distinguished members of the Committee, it is a privilege to 
provide my experience and perspective to you today. Thank you 
for the invitation.
    The perspective I bring to this panel is that of both a 
behavioral scientist and a meteorologist. My research is 
focused primarily on how members of the U.S. public understand 
weather risks and choose to respond to them.
    Today, I will provide a brief overview of some pressing 
issues in weather communications, especially for tornado risk. 
Our country has made significant investments in weather 
research, observing and prediction, and the benefits have been 
vast.
    For example, where we once were unable to warn people 
before tornados touched down, we now offer around 13 minutes of 
lead time on average. Tornado fatality rates have dropped 
considerably.
    Improvements in the detection and prediction of weather 
hazards are therefore critical to continued improvement in 
societal outcomes. That said, it is clear that improvements in 
technology alone will not resolve all the problems we face in 
creating a resilient nation. In fact, events with excellent 
forecasts can still have potentially devastating outcomes.
    One event that makes this abundantly clear occurred on May 
31, 2013 a day that largely fell beneath the national 
consciousness but shook the field of meteorology deeply. Eleven 
days before May 31, on May 20, an EF5 tornado ripped through 
Central Oklahoma killing 24 people in the city of Moore, seven 
of whom were children in an elementary school.
    The ensuing national media frenzy combined with several 
evenings of storms to follow left the collective nerves of 
Oklahomans shattered. I experienced this personally as I was 
there finishing my Ph.D. at the time.
    Already on edge, matters got out of hand quickly on May 31 
when a two mile wide tornado touched down about 30 miles west 
of Oklahoma City, a metro area of about a million people. 
Helicopters flying around the storm captured this scene to my 
right. The top two graphics are from our News 9 helicopters.
    Other photographers around the area captured the bottom 
images of traffic, some people going through flood waters to 
escape the tornado. Of the people who died on May 31, most were 
killed by drowning as they attempted to seek shelter from the 
tornado.
    What you see in these images are tens of thousands of 
people spontaneously fleeing and causing traffic to come to a 
standstill as far south as Norman, 20 miles away.
    The tornado ended up lifting as it came toward Oklahoma 
City, but if it had not, the number of people killed could have 
climbed into the hundreds, plausibly reaching the number of 
people lost in Hurricane Katrina.
    The warnings and forecasts, however, were fantastic. While 
it seems easy to pin this on the tornado that had happened 11 
days before, this event occurred against a backdrop of marked 
shifts in response behaviors of the population in preceding 
years.
    The only way this event could have been caught and 
mitigated against ahead of time is with at least two 
complimentary improvements to our weather infrastructure. One 
is an improved capability to transfer research in social and 
behavioral sciences and the humanities, including risk 
communication and decision sciences into meteorological 
operations, and two, an improved ability to observe and predict 
the world of people as we observe and predict the atmosphere.
    To the first point, many decades of basic research have 
been developed pertaining to disasters, vulnerability, and risk 
decision sciences, but a field of people trained in physical 
sciences are unlikely to have the skills to find, make sense 
of, and apply this work to practice. It is almost literally a 
kind of foreign language.
    We should leverage investments in this human-oriented 
research including that funded by NSF to increase the 
effectiveness of our meteorological infrastructure. To do this, 
we need to incorporate more people with skills in these 
disciplines and give them a voice in decisions about 
meteorological practice.
    To the second point, it is often said that all disasters 
are local. Each place in our country is better adapted to 
certain kinds of hazards than others.
    One of the key strengths of the Weather Service is its 
geographical diversity, with 122 field offices spread across 
the country, allowing forecasters to have some nimbleness to 
serve the unique needs of their populations.
    To leverage this localness, we need to provide forecasters 
with information about their people, best practices, and with 
up to date recommendations for working with our private sector 
and emergency management partners to promote resilience.
    The public safety mission of the Weather Service is 
achieved through these partnerships. The Weather Service cannot 
and does not implement its core life-saving mission alone. We 
should couple pre-event monitoring with an NTSB like capability 
to conduct post-disaster assessments so this life saving 
enterprise is not left to merely guess about how they can do 
their jobs better when disaster strikes.
    Thank you again for the opportunity to provide remarks 
today, and I welcome questions from the Committee.
    [The prepared statement of Dr. Klockow follows:]

    Prepared Statement of Dr. Kim Klockow, Postdoctoral Researcher, 
            University Corporation for Atmospheric Research
    Chairman Thune, Ranking Member Nelson, and distinguished members of 
the Committee, it is a privilege to provide my experience and 
perspective to you today. Thank you for the invitation.
    The perspective I bring to this panel is that of both a behavioral 
scientist and meteorologist. My research has focused primarily on how 
members of the U.S. public understand weather risks and choose to 
respond to them. Today, I will provide a brief overview of some 
pressing issues in weather communication, especially for tornado risk.
    Our country has made significant investments in weather research, 
observing and prediction, and the benefits have been vast. For example, 
where we once were unable to warn people before tornadoes touched down, 
we now offer around 13 minutes of lead-time on average (Erickson and 
Brooks 2006). Tornado fatality rates have dropped considerably (Brooks 
and Doswell 2002). Improvements in the detection and prediction of 
weather hazards are therefore critical to continued improvement in 
societal outcomes.
    That said, it is clear that improvements in technology alone will 
not resolve all of the problems we face in creating a resilient nation 
(NRC 2006). In fact, events with excellent forecasts can still have 
potentially devastating outcomes. One event that makes this abundantly 
clear occurred on May 31, 2013, a day that largely fell beneath the 
national consciousness, but shook the field of meteorology deeply.
    Eleven days before May 31, on May 20, an EF5 tornado ripped through 
Central Oklahoma, killing 24 people in the City of Moore--7 of whom 
were children in an elementary school. The ensuing national media 
frenzy, combined with several evenings of storms to follow, left the 
collective nerves of Oklahomans shattered. I experienced this 
personally as I was there finishing my PhD at the time.
    Already on-edge, matters got out of hand quickly on May 31 when a 
two-mile wide tornado touched down about 30 miles west of Oklahoma 
City, a metro area of about a million people. Helicopters flying around 
the storms captured this scene:
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Photo credit: KWTV Oklahoma City, 2013.

    Other photographers around the area captured these images of 
traffic, some going through flood waters to escape. Of the people who 
died on May 31, most were killed by drowning as they attempted to seek 
shelter from the tornado (NOAA 2013).
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
     What you see in these images are tens of thousands of people 
spontaneously fleeing and causing traffic to come to a standstill as 
far south as Norman, 20 miles away. The tornado ended up lifting as it 
came toward Oklahoma City, but if it had not, the number of people 
killed could have climbed into the hundreds, plausibly reaching the 
number of people lost in Hurricane Katrina. And this is in the most 
tornado-savvy population in the world, with access to the best 
technology and communication networks. The warnings and forecasts were 
fantastic. While it seems easy to pin this on the tornado that had 
happened 11 days before, this event occurred against a backdrop of 
marked shifts in the response behaviors of the population in preceding 
years.
    The only way this event could have been caught and mitigated 
against ahead of time is with two complementary improvements to our 
weather infrastructure:

  (1)  An improved capability to transfer research in social and 
        behavioral sciences and the humanities, including risk 
        communication and decision sciences, into meteorological 
        operations, and

  (2)  An improved ability to observe and predict the world of people 
        as we observe and predict the atmosphere.

    To the first point, many decades of basic research have been 
developed pertaining to disasters, vulnerability, and risk decision 
sciences, but a field of people trained in physical sciences are 
unlikely to have the skills to find, make sense of, and apply this work 
to practice. It is almost literally a kind of foreign language. We 
should leverage extant investments in this human-oriented research, 
including that funded by NSF, to increase the effectiveness of our 
meteorological infrastructure. To do this, we need to incorporate more 
people with skills in these disciplines and give them a voice in 
decisions about meteorological practice. We must also partner with NSF 
and our academic partners to translate basic research to applications 
in meteorology.
    To the second point, it is often said that all disasters are local. 
Each place in our country is better adapted to certain kinds of hazards 
than others. Each place will have a unique history and trajectory with 
different hazards, and different communication strategies will 
therefore be appropriate in different places. One of the key strengths 
of the NWS is its geographical diversity, with 122 field offices spread 
across the country, allowing forecasters to have some nimbleness to 
serve the unique needs of their populations. To leverage this 
localness, we need to provide forecasters with information about their 
people, with best practices, and with up-to-date recommendations for 
working with our private sector and emergency management partners to 
promote resilience. The public safety mission of the NWS will be 
achieved through these partnerships. The Weather Service cannot, and 
does not, implement its core life-saving mission alone (NRC 2003). We 
should couple pre-event monitoring with an NTSB-like capability to 
conduct post-disaster assessments (NRC 2012) so this life-saving 
enterprise is not left to merely guess about how they can do their jobs 
better.
    Thank you again for the opportunity to provide remarks today, and I 
welcome questions from the Committee.
References
    Brooks, H. E., and C. A. Doswell III, 2002: Deaths in the 3 May 
1999 Oklahoma City tornado from a historical perspective. Wea. 
Forecasting, 17, 354-361.

    Erickson, S., and Brooks H.E., 2006: Lead time and Time Under 
Tornado Warnings: 1986-2004. Preparedness and Sociological Issues, 23rd 
Conference on Severe Local Storms.

    National Oceanic and Atmospheric Administration, 2013: Service 
Assessment: May 2013 Oklahoma Tornadoes and Flash Flooding. Silver 
Spring, National Oceanic and Atmospheric Administration, U.S. 
Department of Commerce, 63pp.

    National Research Council, 2003: Fair Weather: Effective 
Partnership in Weather and Climate Services. Washington, D.C., National 
Academies Press, 239pp.

    National Research Council, 2006: Completing the Forecast: 
Characterizing and Communicating Uncertainty for Better Decisions Using 
Weather and Climate Forecasts. Washington, D.C., National Academies 
Press, 125pp.

    National Research Council, 2012: Weather Services for the Nation: 
Becoming Second to None. Washington, D.C., National Academies Press, 
87pp.

    The Chairman. Thank you, Dr. Klockow. Mr. Hermey?

 STATEMENT OF DON HERMEY, CHIEF, EMERGENCY MANAGEMENT, MANATEE 
                   COUNTY, BRADENTON, FLORIDA

    Mr. Hermey. Thank you, Chairman Thune, Ranking Member 
Nelson, and members of the Committee for holding this hearing 
today. I am pleased to be here to address ways in which we can 
better communicate weather to enhance commerce and safety.
    I am the Chief of Emergency Management for Manatee County. 
I am very fortunate to have an administration and a Board of 
County Commissioners who make emergency management a top 
priority.
    Manatee County is located on the west coast of Florida, and 
the City of Bradenton is our county seat. We have a resident 
population of 340,000, yet we hosted approximately three 
million visitors in 2014.
    Our largest economic drivers include the home of the 
Pittsburgh Pirates' spring training, Tropicana Orange Juice, 
Feld Entertainment, Bealls, agriculture, tourism, and a seaport 
known as Port Manatee.
    Our partnership with the National Weather Service and 
particularly the Weather Forecast Office and that team in 
Ruskin is vital for the protection of our citizens. They are 
available to me 24 hours a day, 7 days a week. Decision 
support, whether it be for severe weather, HAZMAT incidents, 
general needs to support an outdoor event or activity, they are 
there for me.
    The National Weather Service technical facilities, such as 
the National Hurricane Center and the Storm Prediction Center, 
provide crucial information to the entire country. I cannot 
begin to express my gratitude and appreciation for their 
ability to distill and distribute scientific data in a manner 
that our citizens, policymakers, and operational responders can 
manage.
    Emergency managers nationwide rely on the National Weather 
Service expertise to protect their citizens. Right now, 
numerous opportunities do exist given the proliferation of 
communication channels and technology, whereas we once lived in 
an era where people tuned into select television and radio 
stations for weather information at specific times, they now 
have the ability to get it anywhere, any time, on their phones 
and other technology devices.
    We have private sector apps from the Weather Channel, 
Accuweather, and WeatherBug, just to name a few. Within my own 
jurisdiction, we purchase a number of meteorological devices 
from WeatherBug.
    Through social media, such as Twitter and Facebook, my 
local government information outreach links to the National 
Weather Service weather information to further disseminate 
alerts at our local level with warnings along with details of 
my elected officials and their local actions.
    However, we need to ensure that we have the ability to get 
appropriate information into the hands of every person who 
needs it, regardless of their location or any physical 
challenges they may have. This means increasing the ability to 
provide location specific warnings that are precise as 
possible.
    We need to consider timeliness and various demographics of 
our citizens for how and when they receive the information. For 
example, too much lead time can create disruptions and 
difficulties for business. This may result in people leaving a 
safe area prematurely or an unnecessary and significant loss of 
economic activity. Too little lead time could cause a panic and 
unprepared community.
    We should continue to make sure that any information 
provided to the public acknowledges the uncertainty of 
forecasting, and that forecasts are not 100 percent accurate, 
although it is a goal.
    The National Weather Service has had great success in 
improving its forecast and warning efforts for hurricanes. It 
means fewer evacuations and saving lives. It also enables us to 
better place vital response and recovery assets, reduce 
disruption to areas that have not been impacted, and decreasing 
anxiety of the public.
    That said, we need more information with regard to storm 
surge. Hurricane related evacuation is based on storm surge 
forecasting and has undoubtedly saved lives. Similarly, 
riptides are a serious problem in some areas of the country. We 
have good bathymetry, but we tend to issue warnings over 
extremely large areas.
    Given that we can now locate individuals precisely to the 
inch, we have the potential to notify individuals on one 
specific beach while one quarter a mile away is not notified. 
This could drastically reduce changes in beach goers' attitudes 
and marine rescue focuses.
    Private sector, including the media, play an important role 
in providing weather forecasts and alerts. A number of private 
weather companies exist and provide excellent client service. 
However, we need to ensure that the National Weather Service is 
recognized as the best weather agency in the world whose 
products are the definitive gold standard and are available to 
all levels of government and to the public.
    These advances will require funding for people and 
technological advances. Giving the National Weather Service the 
tools and support needed to improve warnings and communications 
is an investment this country should make.
    I thank you for the opportunity to testify today.
    [The prepared statement of Mr. Hermey follows:]

Prepared Statement of Don Hermey, Chief, Emergency Management, Manatee 
                       County, Bradenton, Florida
Introduction
    Thank you Chairman Thune, Ranking Member Nelson, and members of the 
Committee for holding this hearing today. I am pleased to be here to 
address ways in which we can better communicate weather to enhance 
commerce and safety.
    I am the Chief of Emergency Management for Manatee County and have 
over a decade of experience in emergency management with the past three 
years as chief. Manatee County is located on the West Coast of Florida 
and the City of Bradenton is our county seat. We have a resident 
population of 340,000 and we hosted 2,916,100 visitors in 2014. Our 
large economic drivers include the home of the Pittsburgh Pirates 
Spring Training, Tropicana Orange Juice, Feld Entertainment, Bealls 
Retail, agriculture and tourism.
    Our partnership with the National Weather Service and particularly 
the Weather Forecast Office in Ruskin Florida is vital for the 
protection of our citizens. We have weekly weather forecast conference 
calls and webinars as a matter of routine. They are available to me 24 
hours a day and 7 days a week for decision support. I cannot begin to 
express my gratitude and appreciation for their ability to distill and 
distribute scientific data in a manner that our citizens, policy makers 
and operational responders can manage.
    Weather forecasts and warnings are incredibly important to 
emergency managers around the country. While emergency managers deal 
with all kinds of events, the majority are weather-related--and the 
impact they can have is substantial. Severe weather can drive people 
from their homes, destroy their businesses, and disrupt their lives in 
ways both big and small. NWS, has estimated that in the United States 
in 2014, there were 8 weather and climate events costing more than $1 
billion each and leading to 53 deaths. Events such as these leave long-
lasting imprints on the communities they hit.
    The United States' current capability to collect weather data and 
provide forecasts and alerts is advanced relative to other countries 
and our own historic performance. But there is still work to be done. 
In my testimony today, I will discuss the role of the National Weather 
Service (NWS) in providing these services, steps the NWS and others can 
take to improve their efforts, and the role of the private sector in 
these activities.
    The National Weather Service (NWS), an agency within the Department 
of Commerce's National Oceanic and Atmospheric Administration (NOAA's), 
plays a crucial role in providing weather forecasts and warnings for 
the United States. The NWS works hand-in-hand with the emergency 
management community before, during, and after a disaster--providing 
information and expertise. In 2013, the National Academy of Public 
Administration released a study looking at the NWS. The study included 
focus groups with state and local emergency managers, who reported that 
they saw the NWS as critical partners with whom they communicate with 
regularly.
    The expertise provided by the National Weather Service field 
offices throughout the country is invaluable, and emergency managers 
rely on their support. In West Virginia, for example, the NWS's 
Incident Meteorologists were integrated into the Joint Interagency Task 
Force for the National Boy Scout Jamboree. They provided information on 
lightning strikes and storms in almost real time and shared information 
with the Scout Ops Center so that some of the event could be moved 
before a major thunderstorm hit. Similarly, the NWS's technical 
facilities, such as the National Hurricane Center (NHC) and the Storm 
Prediction Center (SPC), provide crucial information to the entire 
country--which is then used to protect and save lives.
    The improved warnings NWS provides have led to a significant 
reduction in weather-related deaths and reduced the negative impact 
weather can have on communities. A great example of this took place in 
Mississippi in February 10, 2013. The NWS office in Jackson had warned 
for three days that there was a significant risk of tornadoes in the 
southern part of the state. At 5 p.m. an EF-4 tornado ripped through 
Lamar and Forrest counties, including the City of Hattiesburg--which 
houses the University of Southern Mississippi. Despite more than 2,000 
homes being damaged, there was not a single death. The incident was 
granted a Federal disaster declaration, and when survivors who received 
assistance were polled they all responded that the advanced warning 
from the NWS and local emergency managers had prepared them to take 
shelter.
Getting the Message Out
    The NWS plays a crucial role in communicating information and 
issuing weather alerts and warning--a role it shares with other Federal 
agencies, state and local government, and the private sector. For the 
efforts of these stakeholders to be successful, the information 
produced must get to the appropriate end users: the individuals, 
communities, and businesses that need to know when a storm or disaster 
might be heading their way.
    Right now, numerous opportunities exist to do this given the 
proliferation of communication channels and media. Whereas we once 
lived in era where people tuned into select television and radio 
stations for weather information, they now have the ability to get it 
anywhere and anytime on their phone and computer. For example, 
traditional weather radio and the Emergency Alert System are now 
supplemented by Wireless Emergency Alerts and FEMA's Integrated Public 
Alert and Warning System (IPAWS). People can also access information 
through private sector apps from the Weather Channel, Accuweather, and 
WeatherBug, among others--as well as social media such as Twitter and 
Facebook. State and local governments also disseminate alerts and 
warnings.
    All of this has helped important information get into the right 
hands, and the NWS and others are taking advantage of the opportunities 
they offer. But there's more work to be done. We continue to see 
weather-related deaths because people and communities are caught 
unaware. There are several steps that can be taken to move us forward 
and ensure we do a better job communicating.
Provide location specific information
    We need to ensure that we have the ability to get appropriate 
information into the hands of every person who needs it, regardless of 
their location and any physical challenges they may have. This means 
doing a better job providing location-specific warnings that are 
precise as possible. For example FEMA's new weather app provides an 
important service in providing severe weather warnings--but it only 
goes down as far as the county level. People need even better 
information.
Consider timeliness
    In sharing information, we need to think more about timeliness. We 
often worry that people don't get enough information in advance--that 
we don't provide enough lead time, making it difficult for them to 
prepare or evacuate. But we need to think about the opposite as well. 
For example, while more lead time is important for large venues like a 
baseball stadium, too much lead team can create difficulties for 
business. This may result in people leaving a safe area prematurely or 
an unnecessary and significant loss of economic activity.
Avoid ``over-warning''
    It's important to make sure that we don't deluge people and 
communities with warnings--whether over a given time period or within a 
specific location. Too many warnings can lead to warning fatigue, where 
people tune out the information they're sent, as well as second-
guessing by businesses and schools that need to be focused on life 
safety. We also need to keep in mind that warnings are disruptive to 
business, which may have to curtail their hours and redirect resources.
Be accessible
    In providing information to the public, we need to make sure that 
it is intelligible to the average citizen and not overwhelm people with 
jargon or inaccessible language. The NWS, for example, should continue 
to develop terminology that meets the needs of professionals as well as 
laypeople. Moreover, it is important that while the precision and 
accuracy of forecasts continue to increase, we help the public 
understand how the process works. We should make sure that any 
information provided to the public acknowledges the uncertainty of 
forecasting. It's important for people to know that forecasts are not 
100 percent accurate.
Engage partners
    Our partners in the media are crucial to our efforts to communicate 
information about the weather. Unfortunately, many television and news 
stations are dedicating less and less time to this--which is troubling 
given how much we rely on them. We need to emphasize to them that they 
are part of the solution and reward those who make a concerted effort 
to help.
Improving Efforts for Some Hazards
    The NWS has seen great success in its forecasting and warning 
efforts for some hazards, such as hurricanes. The improvement in 
hurricane forecasting accuracy means fewer evacuations, which saves 
lives and allows us to focus assets where they are most needed. It also 
enabled us to better place vital response and recovery assets, reduce 
the disruption to areas that have not been impacted, and decrease the 
anxiety of the public. An example of this would be the difference in 
forecasts during 1999's Hurricane Floyd compared to Hurricanes Earl 
(2010), Irene (2011), and Sandy (2012). The forecast of Hurricane Floyd 
in 1999 led decision makers to order evacuations along Florida's 
Atlantic coast, which has some of the state's most populated counties, 
and the result was the largest evacuation in the state's history. More 
than a decade later, forecasting had improved significantly enough that 
when Hurricanes Earl, Irene, and Sandy took tracks similar to Floyd, 
the forecasts did not trigger evacuations in Florida.
    That said, we need to do more with regard to storm surge. A 
majority of hurricane-related evacuation is based on storm surge 
forecasting and has undoubtedly saved lives. But we need to devote more 
resources to this area. That means more people, more computing power, 
and more resources--all or which can help increase awareness. Hurricane 
Sandy showed the crippling impact storm surge can have. As the National 
Hurricane Center pointed out in a 2013 report on Sandy, the storm 
caused water levels to rise along the entire east coast from Maine to 
Florida. This was to catastrophic effect in New York and Jersey. Parts 
of Red Hook, Brooklyn, for example, were under several feet of water, 
devastating homes and businesses. In Seaside Heights, New Jersey, the 
storm famously destroyed the iconic Casino and Funtown piers.
    We could also improve our forecasting and warning efforts for other 
hazards. This year, for example, we saw record snowfalls in the 
northeast and other regions of the country. Unfortunately, for this 
type of hazard, the NWS only provides information on snowfall amounts 
out to 72 hours, which doesn't provide retail locations with enough 
lead time to prepare for the rush that may occur as concerned citizens 
hurry to fill their pantries and refrigerators. An extra 24 hours would 
help avoid the inevitable news stories showing shelves stripped bare, 
as grocery stores and others would have more time to prepare.
    Similarly, riptides are a serious problem in some areas of the 
country, and we need to devote more resources to disseminating 
information about this hazard. We have good bathymetry indicating areas 
where rip currents are likely, and we know when the conditions are 
right for them to form. But we tend to issue warnings over extremely 
large areas that encompass points that are not likely to have an event. 
Given that we can now locate individuals precisely to the inch, we have 
the potential to notify individuals on one specific beach while one a 
quarter mile away is not notified. This could drastically change 
beachgoers' attitudes and reduce deaths.
    Finally, flooding is another hazard where we could improve. 
Flooding is the most costly disaster in the United States. As the 
Congressional Research Service has reported, over the more than 40 
years it has been in existence, the National Flood Insurance Program 
has suffered six years in which it has issued payouts of $1 billion or 
more: 1995, 2001, 2004, 2005, 2008, and 2011. We need to see better 
cooperation among FEMA; its components, such as the Federal Insurance & 
Mitigation Administration and the National Flood Insurance Program; and 
state and local governments to increase awareness and warning with 
regard to floods. FEMA Administrator Craig Fugate testified in 2011 
that many owners of flood-prone property choose not to buy flood 
insurance but then drew on Federal assistance after a flood. We need to 
do more to make property owners aware of their risks and 
responsibilities.
Private Sector
    The private sector obviously plays an important role in providing 
weather forecasts and alerts. A number of private weather companies 
exist, and in many cases they provide excellent services. But the NWS 
is a vital asset for this country, and we need to make sure that it is 
provided the resources it needs. We need to ensure that the NWS is 
recognized as the best weather agency in the world whose products are 
the definitive gold standard when it comes to life safety information. 
If they are not and people begin to rely too much on private sector 
weather providers, we will see conflicting information leading to 
action paralysis. Moreover, unlike private weather services, the NWS 
can be held accountable to the public for its forecasts.
Conclusion
    The NWS and its partners in state and local government and the 
private sector provide an important service to the public through their 
forecasts and warnings. Although emergency managers at all levels focus 
on all-hazards, the majority of incidents we deal with are weather-
related. By having a strong and robust partnership with the NWS, we are 
able to help our citizens better prepare for future disasters--which 
allows us to focus our response and recovery efforts more precisely on 
those who are unable to help themselves. It can also help improve our 
Nation's mitigation efforts by ensuring that citizens understand the 
hazards they face and empower them to take actions to save their life 
and property.
    We are now at a point where advances in forecasting have 
intersected with advances in technology, and we have the potential 
ability to ensure that every person who is in the path of severe 
weather can be notified and take the appropriate life safety actions, 
something never before achievable. Continued advances will provide us 
even better opportunities to ensure life safety and reduce economic 
consequences--which will mean more lives and communities saved from 
loss and heartbreak. We must ensure that we keep our foot on the pedal. 
The economic investments our Nation makes in this area more than pay 
for themselves.
    I thank you for the opportunity to testify today and welcome any 
questions you may have for me.

    The Chairman. Thank you, Mr. Hermey. Senator Schatz, I 
understand you have somewhere you have to get.
    Senator Schatz. I am okay.
    The Chairman. All right. I will start asking a couple of 
questions here and then we will proceed in the regular order.
    This would be just a broad question for the panel. If there 
is one change that Congress could make or something that 
Congress could do to help advance the weather enterprise, what 
would that be? Take a minute to think about that. Anybody? Stay 
out of the way?
    Mr. Hermey. I would suggest just supporting them. The 
challenge today particularly with some of the technologies. I 
made a statement about Twitter and Facebook, but if you talked 
to my children, they have nothing to do with it. They are into 
Pinterest and Snapchat. The world is changing dynamically as it 
relates to technology, and we need to figure out better ways to 
communicate with the different demographics.
    In Florida, I also have an elderly population. They still 
tune to traditional radio and TV. We have to figure out how to 
best accommodate all those needs out there, so flexibility and 
the funding to support that flexibility is critically 
important.
    Dr. Klockow. I would follow up to suggest that from a 
social behavioral scientist's perspective, I want the community 
to come together to suggest what we should do in detail, but I 
think one of the things the Federal Government could take a 
lead in is being an organizing force, helping to galvanize the 
academic community.
    Since the public safety mission is a core fundamental issue 
in the Weather Service, a core part of their mission, they 
should take the lead in trying to shepherd all the people who 
are trying to be a part of that, who are a part of that. I 
guess like a core organizing competency that is able to do all 
of that would be useful.
    Mr. Sznaider. From my perspective and Schneider Electric, 
we appreciate what NOAA does and have a great deal of respect 
for them. Having said that, we would welcome a closer working 
relationship and partnership between the agency and some of the 
commercial private sectors.
    It is my understanding some other agencies have been able 
to establish sustainable partnerships with peer reviews, 
stakeholder meetings, working groups, advisory committees and 
such.
    The more we can do that, the better we will all be because 
organizations like ourselves, we have a very intimate knowledge 
of some of the problems and how best to communicate the context 
of a weather forecast. I often say that whether you are running 
a business or an agency, the way to get things wrong is to sit 
in a room and just talk amongst yourselves. The way to get it 
right is to go talk to the customers and understand and accept 
what they are telling you.
    We have a lot of businesses in the communities already as 
our customers, and we have a lot of context that we want to 
find a way to better inform NOAA so their research and 
development efforts can be appropriately targeted for the best 
results.
    Dr. Trobec. I think something that may be unique in the 
weather enterprise is we meet constantly to talk about these 
things in terms of we have the public sector, we have the 
private sector, we have the academic sector. All three are 
hugely important, and we are very lucky we have big brains in 
all three of those sectors. We are always coming together and 
talking about it.
    From my perspective, the thing is whatever you can do to 
help us get that forecast right. I think we can figure out the 
back end if we get the front end figured out, when we have 
times of emergencies, when we have times of crisis, if we 
diagnose it soon enough and well enough, I think we will be 
able to handle getting the message out to our public.
    The Chairman. As a follow-up, taking sort of a broad 
perspective on how the Weather Service alerts people of 
potential weather threats, do you think we ought to rethink how 
we structure our weather alerting system? If so, what might be 
consider in doing that?
    Mr. Sznaider. I would like to take a first shot at that. 
Back in the 1990s when the weather radar system was deployed, 
there was a high level of collaboration in the establishment of 
what was called NIDS, NEXRAD Information Distribution System.
    Four companies competed and were qualified to be the 
primary gateway for the distribution of information. It was 
really an effective method of a public/private partnership. It 
involved the commercial television broadcasting industry and 
the like.
    Since then, things have changed. There is no weather radio. 
There is social media. There are a lot of things.
    My point is there was more collaboration then than today, 
and we need to get back to that so we can figure out the best 
ways to communicate the information most effectively.
    The Chairman. What else?
    Dr. Klockow. I will follow up with that to suggest that you 
are sort of talking about what we call the ``watch warning 
advisory system.'' The way we have structured how we 
communicate about various kinds of hazards and time, different 
kinds of products, they all have different thresholds for being 
issued.
    One of the things that we know we have to do better as a 
community is to communicate uncertainty, and we do not 
necessarily do that really, really well in the current watch 
warning advisory system. It is implicitly a part of it but the 
system is a little clunky, a little discontinuous, and there 
are emerging technologies that could really challenge that 
system.
    If we think about incorporating uncertainty, we have to 
maybe do a bit of a rethink, but we should do it carefully 
because the system is a legacy product, and there are a lot of 
folks who use the watch warning advisory system when certain 
kinds of warnings are issued, there are a lot of people that do 
a lot of things as part of this system. We do not do anything 
in a box in the field of meteorology. There is a whole system 
that is in place.
    I think if we are going to rethink that system, it should 
be done carefully with the needs of all the stakeholders in 
mind, and we can maybe think about various ways to communicate 
this information, but it should really be done in concert with 
everybody who depends on it.
    The Chairman. Thank you. Senator Nelson?
    Senator Nelson. Senator Schatz, do you need to go?
    Senator Schatz. Go ahead.
    Senator Nelson. First of all, I want to get back on my 
accolades to the meteorologists that are broadcasting. We have 
Bob Ryan who is retired from Channel 9 ABC here locally.
    If you have the tools, whether it is through social media, 
whether it is through the new social media that so many young 
people are on, if you had the tools to accurately forecast, 
they could get out the word.
    There is a next generation of Doppler radars called 
``NEXRAD,'' which will enable you to detect the formation of a 
tornado before they touch down. It will reduce deaths by 34 
percent is the estimate, and injuries reduced by 45 percent.
    If we can get this technology, Mr. Chairman, and then push 
it out to the community, we can do it.
    You were talking about human behavior, and you sent out 
this picture of in advance of Hurricane Rita in Texas, and they 
are trying to get out. Of course, the roads are just 
impossible.
    I will never forget, we had a hurricane that was headed to 
North Florida, a place that very few hurricanes hit, 
Jacksonville. Interstate 10 going west, which was the logical 
route to get people out of the urban area, was impossible. It 
crept along at no progress, and there that was the westbound 
lane. The eastbound lane was totally unused. Well, the obvious 
thing to do is to have a plan for evacuation of which you are 
using the eastbound lane and you reverse it, so that all the 
lanes are going west.
    We had to go through that experience in order to wake up to 
using some common sense.
    Mr. Sznaider, everything that is going on in the 
forecasting on helping farmers, agricultural people, businesses 
get ready, we have the tools, we have the technology, if we 
will just employ them.
    I am going to stop right there so we can get on to the 
other senators.
    The Chairman. Thank you, Senator Nelson. Senator Schatz?

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman. Thank you, Ranking 
Member. I have a question for all the panelists, if you would 
not mind answering briefly. It seems to me based on Mr. 
Sznaider's testimony that there is somewhat of a lack of 
clarity or at least it is evolving who does what between the 
Federal agencies and the private sector and the local emergency 
managers and all the rest.
    Here is the basic question I have. What is it that NOAA 
does that only NOAA can be doing, should be doing?
    Dr. Trobec. Senator, one of the things--I am just going to 
talk about say tornado warnings, something like that, that has 
to be done by NOAA, for a multitude of reasons, mostly because 
number one, you have to speak with one voice. Number two, NOAA 
is staffed 24 hours a day. Three, not such a small thing in the 
warning process, they cannot get sued, which is not a small 
thing. That is one thing that comes immediately to mind.
    Senator Schatz. Thank you.
    Mr. Sznaider. I would follow up with total agreement with 
that. As I mentioned in my opening testimony, we believe very 
strongly that NOAA should take the lead in the very 
sophisticated numerical weather prediction models, as well as 
being the single source for the issuance of these very 
important hazardous weather warning alerts.
    Having said that, I would also like to echo some of the 
comments of the other panelists that there is still plenty of 
room for improvement in those prediction models.
    To make a comment to Ranking Member Nelson, in the 
agricultural community, and to Chairman Thune, there is still 
limited work being done in terms of specific forecasts for 
agriculture, for drought models and the like.
    Most of our businesses and most of our customers make most 
of their decisions still in a relatively short time period, 36 
hours, maybe 5 to 7 days for planning, and certainly there is 
some value in longer range outlooks as well.
    Senator Schatz. Your basic contention is there needs to be 
better data sharing, and not just hard scientific data but sort 
of the needs of your downstream customers. It seems to me you 
are saying that because there is a question of jurisdiction and 
turf, and a little bit of lack of clarity or at least it is 
evolving, that you do not have the partnership that you wish 
you had so you could better inform how NOAA could service its 
customers at the consumer level, at the individual level, at 
the institutional level.
    Mr. Sznaider. Right. The more data sources that are 
available, even from a commercial source, that go into the 
models to help initialize better, that is a good thing. For 
better or worse, we have to find the best solutions for our 
customers. It is a very competitive environment. We have to 
today partner with many organizations outside of the U.S. both 
public and private.
    We would much prefer to work closer with NOAA to help them 
maximize the accuracy of their forecasts.
    Senator Schatz. Thank you.
    Dr. Klockow. To follow on from that comment, I think NOAA 
can play a really important role, as I alluded to in my earlier 
comments, in organize and galvanize, in a couple of different 
ways.
    Taking a step back, the social behavioral sciences are 
numerous, and there are actually a lot of communities of 
researchers who are learning a lot about how people understand 
risks and how to communicate really well, but they are not 
necessarily talking to each other. They do not even know 
necessarily that they exist across universities or across 
academic units.
    All the research they are doing has relevance to NOAA's 
mission, so it makes sense for maybe NOAA to consider being a 
place where they can start to assimilate that, bring all that 
knowledge together, and maybe transition, take some of that 
research in a pipeline tradition and try to make it relevant to 
what NOAA is doing.
    Senator Schatz. I like the idea of NOAA as a convener and I 
think it makes sense, it is the Federal Government, it is the 
best source of all the satellite data, analysis, and all the 
rest of it.
    I worry a little bit that would eventually result in some 
mission creep, so I think it is important to do the convening. 
I think it is important to stitch together the current social 
science, and I am particularly interested having been in a 
couple of emergency operating centers when I was in the state 
of Hawaii in state government, in the impact of social media, 
both positively and negatively, in terms of informing the 
public.
    I take all of your points. I just wonder whether NOAA is 
the right convener on that particular question because it 
strays from where all the expertise actually resides, which is 
not at NOAA. NOAA has weather scientists and satellite 
scientists and ocean scientists, maybe not so many social 
scientists.
    Dr. Klockow. That is true, they do not. There is some 
internal capacity. That is actually part of the challenge. It 
is a physical science agency. The issue is it is physical 
scientists who have a life saving mission. How are they 
supposed to do life saving if they do not know very much 
directly about how people are understanding, receiving, and 
responding to their information. It is a good question.
    Senator Schatz. Thank you. I am sorry, Mr. Hermey, my time 
has expired by 40 seconds. Thank you.
    The Chairman. Thank you, Senator Schatz. My neighbor from 
the good state of Minnesota, Senator Klobuchar, whose many 
constituents also rely on the good Dr. Trobec's forecasts.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Exactly. Whose constituents care a lot 
about weather, especially when it is 41 below zero without wind 
chill, and that happened this year.
    Thank you so much, and I especially wanted to greet our 
Minnesotan who is here today, thank you so much, Mr. Sznaider, 
for being here, and thank you for your work and your real 
understanding of what accurate weather forecasts can mean for 
the economy and how to innovate new ways to get accurate data 
to businesses and communities. It is really critical.
    I guess I would lead with you on this question. You 
referenced a study from the National Center for Atmospheric 
Research that states that 16 percent of aggregate U.S. economy 
is sensitive to weather on an annual basis while farming and 
aviation are examples of industries that are sensitive to 
weather.
    What other kind of industries do you think that you would 
not expect to care a lot about weather, and what trends has 
your company seen in how they impact your customers' demand for 
more accurate information on weather?
    Mr. Sznaider. Thank you for the question, Senator 
Klobuchar. I would also like to take the opportunity to invite 
you to stop by Burnsville, Minnesota. Our operation is 24 hours 
a day.
    Senator Klobuchar. I have been in Burnsville, but not in 
your operations.
    Mr. Sznaider. We would love to have you.
    Senator Klobuchar. OK.
    Mr. Sznaider. There are many, many areas where an accurate 
weather forecast properly integrated into a business, for 
example, can make a huge economic impact. One of them that we 
happen to do quite a bit of work on is with electric utilities. 
Weather is the single biggest variable in the forecast of how 
much power will need to be generated tomorrow. An accurate 
weather forecast, even something as mundane as temperature, it 
matters.
    One of our customers, Con Edison, in New York, in a large 
metropolitan area, if on a hot day during the summer, let's say 
97 degrees is the forecast, it actually goes to 100, we miss by 
three degrees, it could result in half a million dollars of 
extra expense, just to go out and buy extra power and start up 
ancillary generators.
    Accuracy matters. In aviation, I talked about turbulence 
alerting, that has potential for fuel savings, because airlines 
and actually Hawaiian Air uses our service, carrying extra fuel 
unnecessarily or not enough when they run into turbulence, it 
is a big deal. It is not only a safety concern but it is also 
an economic impact.
    In agriculture, there is so much more that we can do by 
taking different datasets and better measurements in the rural 
parts of the country and then integrating those into better 
forecast models.
    It goes on and on. I will just say one thing real quickly, 
communication of the information is so important as well. We 
try to give context and confidence in our forecasts. It is so 
important.
    I think we are talking about the right things, but it does 
start upstream with a really better forecast.
    Senator Klobuchar. Thank you very much. Dr. Trobec, I have 
certainly seen the power of local broadcasters when we have had 
the floods in Moorhead and Fargo, when we had tornadoes come. 
It is an unbelievable thing how many lives can be saved.
    I know you travel internationally, and how do we compare in 
our country with getting that information out there compared to 
other places?
    Dr. Trobec. We are number one, of course.
    Senator Klobuchar. That was called a ``softball'' question.
    Dr. Trobec. Maybe something I would like to point out, in 
most of the world actually, the weather presenters are weather 
presenters, and here we actually have meteorologists who 
actually do the stuff. More often than not, you are going to 
find a meteorologist who is there.
    Actually, in a number of countries, the weather forecast 
you see on the 10 o'clock news is actually videotaped ahead of 
time. That is something that is definitely not done in this 
country.
    Certainly, with the way we do watches and warnings and 
things like that, it is a whole different situation in other 
countries.
    Senator Klobuchar. Thank you very much.
    The Chairman. Thank you, Senator Klobuchar. The only member 
of this panel who might be able to beat your 41 below is the 
Senator from Alaska.
    Senator Klobuchar. I do not know, there was a day when 
International Falls, Minnesota measured colder than Mars.
    [Laughter.]
    Senator Nelson. Mr. Chairman, I do not even understand what 
41 degrees below is.
    The Chairman. Senator Nelson looked at me and said 41 
below, and I said you do not want to know. The Senator from 
Alaska.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Mr. Chairman, thanks very much. I was 
going to mention, Senator Klobuchar, that in parts of Alaska, 
41 below zero is just another day.
    I appreciate the hearing. Obviously, this is a hearing the 
topic of which is very important to many of our constituents, 
certainly mine in terms of weather, whether it is pilots, 
hikers, fishermen, accurate weather, and then the dissemination 
accurately of that weather is critical.
    I just wanted to ask kind of a broad question, which is 
when you look at challenges with regard to doing your job 
accurately and then that important function of actually 
disseminating the information to as many people as possible, 
what do you see as the biggest challenges?
    Is it money? Is it satellites? Is it kind of state/Federal 
cooperation? What do you see as kind of the key top challenges 
that are inhibiting your ability to do your job better? I can 
open it up to any of the panelists.
    Dr. Trobec. All right. Everybody is looking at me. I hate 
to say all of those, but in a way I kind of mean that. There 
are two primary issues that we have. We have to first get the 
forecast right, and then second, communicate it effectively. 
The same thing goes with emergency weather situations. We have 
to diagnose the problem early and then communicate it to the 
public, to the end users.
    The main issue that we have is getting the forecast right, 
but actually as Kim was saying, there are always going to be 
times--there is a reason why the biggest computers in the world 
are doing weather, because they are incredibly computer 
intensive.
    There is almost an arm's race of computing power going on 
in the world. As soon as we announce we are going to increase 
our computing power, the Europeans say they are making a bigger 
computer, the Japanese.
    Yes, we have to keep on top of the technology. Once we get 
the technology right, people like the social scientists, I 
think we can figure the rest of it out, but if the raw data is 
wrong, there is nothing we can do to help the public.
    Senator Sullivan. Dr. Trobec, are there specific challenges 
that actually relate to states like South Dakota or Alaska that 
are very big and yet have highly sparsely populated parts of 
the state?
    Dr. Trobec. Yes.
    Senator Sullivan. What do you see as those main challenges? 
A little different than say Maryland or other places?
    Dr. Trobec. Yes, certainly. If you are talking about a 
place like Minnesota or South Dakota, the things that are 
important are totally different. That is why there is a 
difference in the warning structure. A calm day in South 
Dakota, western South Dakota, is 30 or 40 mile an hour winds. 
If you have that going through here, it is a big problem. 
Everybody has their own things.
    That is kind of the unique structure of the weather 
enterprise is, we get the big forecasts right, then the smaller 
places, each individual office, that is why you will always see 
the local meteorologists explaining things because different 
weather has different impacts in different places.
    We have to maximize where we are getting the big thing 
right, as my colleagues talked about, get the weather models 
right from the start, then we can interpret how they impact the 
individual people. As talked about here today, the technology, 
the ability to do good forecasts impacts economically and 
socially to an incredible degree. We have to start by getting 
that part right, and it does involve satellites and radars and 
all this stuff we have to spend money on.
    Senator Sullivan. Right. Thank you. Any other thoughts?
    Mr. Sznaider. One quick comment. We have talked about the 
changes in how to communicate information, but there are also 
other changes in the types of weather forecasting that we need 
to pay attention to. One of them is in renewable energy.
    When we talk with our customers in the utility space, it is 
a challenge for them today that they did not have 10 years ago 
to understand how much power will be generated from solar 
panels and from wind that is in residential or on top of 
buildings.
    That is a very difficult forecast, a single group of clouds 
can come and blow it. More research and development in those 
areas will pay off in the long run as well.
    Senator Sullivan. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sullivan. I am just 
curious, this is a question for the panel, the way weather is 
forecasted, we have talked about this quite a bit, has improved 
tremendously just in the past 20 years, what do you see as the 
next big forecasting breakthrough?
    Is there anything you see out there on the horizon that is 
a game changer in terms of how we go about doing this from a 
technological standpoint?
    Dr. Klockow. There is actually a lot of really interesting 
research going on to help connect from where we are on 
warnings, a couple of minutes time scale, to a couple of hours 
time scale. It is a program called FACETS, forecasting a 
continuum of threats.
    That will actually pose a really interesting challenge to 
our watch warning advisory system, because it will maybe offer 
us the chance to communicate uncertainty about storms happening 
in about an hour time-frame in a way we never had before.
    That is something that is coming in the next years to 
decade, and it will be a really interesting thing for us to 
look at from a communication perspective.
    The Chairman. Dr. Trobec, I wanted to make an observation 
and ask you a question. There have been some notable instances 
such as Hurricane Sandy, where the European weather model has 
produced better forecasts than the National Weather Service's 
model. Notably, the Air Force has just announced they are going 
to be using the European weather model rather than contributing 
to and benefiting from domestic forecast products.
    I think maybe you alluded to earlier some of the work, 
observations, and opportunities you have had to see what they 
do in Europe. Do you believe the European weather model is 
better?
    Dr. Trobec. Yes.
    The Chairman. If so, how do we close the forecasting gap?
    Dr. Trobec. You are talking about the Air Force now going 
with the U.K. Met Office, it is a different model, but it, too, 
has been found to be superior. Even at my television station, 
we have used the European model for many years, maybe even one 
of the first ones in the U.S. to pay attention to it.
    One of the big things is the computer people tell us is the 
initialization process is the first thing you do in an computer 
model, it is the hardest part, and what it involves is taking 
the atmosphere at any given moment at every location on Earth 
and changing it into numbers. You are changing this stuff we 
cannot see, the stuff we can barely feel, into numbers.
    If we do not get that right, everything becomes incorrect 
after that. The most important thing is initialization. You 
have to get all the atmospheric conversion to numbers, you have 
to get the numbers in the computer. One of the things they do, 
from the experts I have talked to, the initialization process 
is much more intensive computer-wise, and I think that is an 
issue, and that is why I think we are going to do better now 
that we have more computer capacity, because we will be able to 
use some routines and include some other parameters.
    In a nutshell, that is why it is. They have had bigger 
computers, and it is a lot easier to do a lot of stuff, 
particularly in weather, if you have a bigger computer. That is 
why I say it is not an accident that you look at every one of 
the biggest computers in the world, and they are doing weather 
modeling because it is so intensive, weather and climate 
modeling I should say.
    Mr. Sznaider. Just a very quick follow-up on that, I 
wholeheartedly agree that the initialization, getting the 
information to start a model, extremely important. That is why 
we advocate that there be an honest objective analysis of other 
sources that are available of information from commercial 
platforms, whether they be satellite or surface, land based 
systems, to maximize the initialization of the U.S. models.
    The Chairman. I think we have a vote. Senator Nelson, do 
you want to ask another question?
    Senator Nelson. Yes, just a quick follow-up.
    The Chairman. Then Senator Peters from Michigan.
    Senator Nelson. Before Senator Peters. You cannot get it 
right unless you have the numbers, and you cannot get the 
numbers unless you have the instruments, whether they be on the 
ground or up on orbit.
    For example, we have had one satellite that measures the 
temperature at the ocean's surface, which is also a major 
component on trying to get the direction of a hurricane. We 
have to replace it. NOAA has to in this case have the budget in 
order to do that.
    The good news is that NOAA has a real scientist, Dr. Kathy 
Sullivan, an oceanographer who happens to be a five time flyer 
as an astronaut.
    Some people get this mixed up in the political discussion 
of climate change. Well, we have to get beyond that and look on 
saving lives and property on weather forecasting, and then 
realize the trends in fact that are happening in climate 
change.
    In the last 100 years, the sea has risen in South Florida 
nine inches. You cannot wall it off like they can in Holland 
because Florida is on a porous limestone of Swiss cheese 
limestone, so the more the saltwater rises, the more it 
intrudes into the land and pushes down the fresh water.
    I can count me as one Senator who is all for giving the 
Weather Service the instruments they need. I want Senator 
Peters to have a chance, so I will stop.
    The Chairman. The Senator from Michigan, Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Chairman Thune, and thank you, 
Ranking Member Nelson. Thank you, Ranking Member Nelson, 
because for the questions I was going to ask, that was a great 
lead into, as I am now the new Ranking Member of Space, Science 
and Competitiveness, something I know you are very passionate 
about, as you know, and I will direct this to the panel.
    In a recent hearing that we had for that subcommittee, 
there are some folks here in Washington that believe NASA needs 
to focus on a core mission, which is planetary explorations, 
mission to Mars, and they were saying we should move away from 
Earth sciences, and the investment in NASA on Earth sciences.
    Certainly, as I reminded and as Senator Nelson did, too, we 
reminded other folks on the Committee that as wonderful as our 
solar system is, Earth is still the most important planet in 
our solar system, and to my knowledge, is the only one that 
humans are actually going to be able to live on, so we need to 
continue to study Earth, and NASA provides platforms for you to 
do your work and for others to do their work in an 
extraordinary way. We need to continue to fund Earth sciences 
as part of NASA.
    How important is it to you in your work for NASA to 
continue to be able to launch the satellites and to be a 
partner with you on your mission, and should we continue to 
make sure that NASA, in addition to you having the resources 
for your exploration, NASA has the ability to supplement Earth 
science research in this country?
    Dr. Trobec. I would just say as an operational forecaster, 
in what I do every day, that is one area--meteorologists and 
climatologists are kind of like cousins, we speak the same 
language. This is one area we are absolutely united as an 
entire weather enterprise. That is huge.
    As Senator Nelson was talking about, the sea surface 
temperature, it is not only important for seasonal forecasts, 
but for day to day forecasts. The ocean is a driver of our 
weather across the entire planet.
    I think as a weather enterprise, we would say bravo, 
Senator Peters, get us the tools we need from an Earth science 
perspective, we would appreciate it.
    Senator Peters. Right.
    Mr. Sznaider. I agree. Again, as we were saying earlier, 
the more data, the better. The spaced-based platforms, very, 
very important, whether they be government or commercial 
platforms. There are some good ones out there on both sides, as 
well as on the surface.
    I think it is really, really important, and again, the 
economic impacts of a good weather forecast are just going to 
continue as we are seeing some more volatility in weather. That 
trend is beginning to show itself. We need to get it right even 
more often in a more challenging environment.
    Senator Peters. Anyone else?
    Mr. Hermey. I am not a scientist. Wherever the data comes 
from, I am all for it, but I also would like to have the people 
particularly at the Weather Service and at the prediction 
centers that can help support me and be that arm of the 
scientists so we can make better and informed decisions for our 
citizens.
    Senator Peters. Right. Thank you. We have a vote.
    The Chairman. Thank you, Senator Peters. Feel free, I want 
to ask one more question. You can go vote and we will wrap this 
up. We will keep the record open for questions for the record 
if anybody has any, submit them within a two week period.
    I want to ask Mr. Sznaider one last question, and we do, as 
mentioned earlier, rely heavily on the weather. We are a state 
where agriculture is the number one industry.
    It is day-to-day obviously we have talked a lot about, but 
these seasonal predictions, I am wondering how could you 
incorporate some of these seasonal predictions into your 
business model, and what impact would that have for your 
customers if we were better able to do that, start to evaluate 
wet seasons and dry seasons further in advance?
    Mr. Sznaider. Thank you for the question. Very briefly, 
today, most of the decisions on the production side with 
weather are short term. An application for a typical farmer of 
ours that has 1,000 acres, if they do a pesticide application 
or something like that, and it rains on it too quickly, they 
will lose the effectiveness of that, and it might be like 
$6,000 to $7,000. That happens all over the place.
    Having said that, there is interest in having a more 
reliable and higher skilled seasonable outlook, to begin for 
planning purposes. Certainly, commodity pricing is a big part 
of a farmer. This is big business, and it is important not just 
to grow the crops but be able to get a return on that 
investment.
    Having a better outlook, a longer term outlook, would be 
helpful. I just hope it is not at the complete expense of the 
continued investment necessary to continue to improve the short 
term as well. If we can find that balance, it really makes 
total sense.
    The Chairman. Good. Thank you. Like I said, if you could 
respond to questions for the record as soon as possible, that 
would be most appreciated.
    Great panel, great discussion. Thank you for participating. 
Thanks for the great job you do. Our weather enterprise does a 
terrific job in this country, and I know coming from a state 
where weather is so important and we have wide variations in 
the weather, our folks, Jay and team, do a great job.
    We just want to see if there are ways, as you said, if we 
can improve. Obviously, the biggest room in the house is the 
room for improvement. We are always looking for ways to do it, 
do it even better.
    Thank you all for being here. We are going to go vote. This 
hearing is adjourned.
    [Whereupon, at 11:05 a.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Question Submitted by Hon. Bill Nelson to 
                             Dr. Jay Trobec
    Question. Weather information is only valuable to the extent that 
it is communicated effectively. You have to know your audience to know 
how to give them the relevant information at the right time to make 
decisions. For example, describing a hurricane to a Floridian with 
hurricane shutters and a generator is one thing. Describing a similar 
storm to someone from New York would be very different. What kind of 
miscommunication have you seen and how has that harmed communities in 
decision-making?
    Answer. Thank you for the question, Senator Nelson. The single 
biggest source of misinformation is social media, and broadcasters and 
the National Weather Service have both invested time countering weather 
misinformation distributed through outlets like Facebook (see http://
www.nws.noaa.gov/om/notification/pns11mar
tin.txt). We have seen an increase in the number of people who claim on 
the Internet to be weather experts--whether or not they have any 
meteorological expertise. Even amateurs or college students with some 
meteorological background have been known to go public with outlandish 
long-shot ``forecasts'' on the Internet. They are irresponsible and 
harmful. We know that even the best and brightest in the weather 
enterprise can make a high-end forecast that is erroneous or poorly-
communicated to the public (e.g., ``Sandy,'' Atlanta's ``snow-
pocalypse,'' or the non-snowstorm in Philadelphia in January). Two 
thoughts: (1) We must find a way to speak with ``one-voice'' when it 
comes to high impact weather events, those events which result in 
significant lifestyle and economic effects. Conflicting information 
results in people taking no action, or delayed action that can result 
in undesirable outcomes. We must convince the public to seek and accept 
only reputable weather information. (2) We must continue to improve the 
forecast. During the hearing, I mentioned the need for increased 
computing resources in hopes of closing the gap on computer models 
produced by other countries (that, sadly, outperform American weather 
models). We also need to utilize government AND private sector and 
academic brainpower to make forecast improvements. If we don't get the 
forecast right, nothing else matters. One success story impacting your 
state is the steady improvement in hurricane track predictions in 
recent years (see http://www.nhc.noaa.gov/verification/verify5.shtml).
                                 ______
                                 
     Response to Written Question Submitted by Hon. Cory Booker to 
                             Dr. Jay Trobec
    Question. New Jersey has more than 20 cities with populations 
exceeding 50,000 residents. Urban residents of New Jersey would greatly 
benefit from forecasts that address the unique qualities of urban 
landscapes. The National Academy of Sciences has suggested that 
existing weather models should be adapted to include higher spatial 
resolution and mesoscale modeling in order to increase the accuracy of 
forecasts in urban areas. What are the biggest observational and 
informational gaps that need to be filled in order to optimize urban 
meteorology? Are there any efforts within the weather industry to 
encourage data sharing or training of various end users on how to 
utilize existing weather data? How can existing weather data be better 
utilized to create, practical, ready-to-use products for urban end 
users?
    Answer. Thank you for the questions, Senator Booker. The NAS 
suggests, in Weather Services for the Nation: Becoming Second to None 
(http://www.nap.edu/openbook.php?record_id=13429) that gaps in weather 
data should be reduced. The report specifically suggests actions such 
as installing local radar systems in places where coverage by the 
national radar network NEXRAD is inadequate--such as in urban areas or 
the mountainous west. But the overarching issue is the desire for 
increased density of weather data.
    The bread and butter of modern forecasting is computer modelling. 
Every time a computer begins the modelling process, it does so by 
assimilating the entire atmosphere (every level of altitude every place 
on Earth) and turning weather into numbers. The better the data, the 
more accurate the computer's forecast of future weather conditions is 
likely to be. Where there are gaps in data, the computer fills in those 
gaps using mathematics instead of actual observations. This can result 
in forecast errors--and in computer modelling, forecast errors are 
greatly magnified with each time step into the future.
    There are many different types of data input into the models 
(radar, satellite, weather balloons, and surface observations, to name 
a few). Again, more is better, especially in densely populated areas 
such as yours, in which a there can be big differences in weather 
(affecting thousands of people) over a relatively short distance.
    Urban areas can be impacted by the density of the output of 
computer modelling as well. The spatial resolution (density of forecast 
grid points) has improved over the years. American models (NAM, GFS) 
are now calculating weather conditions over points approximately 12 km 
apart (with ``experimental'' models running 4 km resolution). The 
higher the resolution, the more precise the forecast would be expected 
over smaller areas (such as urban centers). Increased resolution comes 
at a price--in order to double the resolution of a computer model, you 
require approximately an eight-fold increase in computing power.
    There are many training opportunities for end-users to learn how to 
better utilize existing weather data. Meetings and workshops of 
national organizations such as the American Meteorological Society and 
the National Weather Association provide numerous training 
opportunities involving state of the art and up-to-date science and 
research. One issue that seems to arise every year within the 
government is travel budgets. But I assure you that at these meetings 
there is valuable education taking place that has a beneficial impact 
when local meteorologists return to their home locations. While online 
educational opportunities (such as COMET/MetEd) have also improved in 
recent years, there is still no substitute for the effectiveness of the 
eye-to-eye, in-person meeting.
    In the Second to None report, there is significant emphasis put on 
the need for involvement of the private sector to improve the weather 
enterprise. One thing the Congress can do--through oversight--is ensure 
that NOAA take actual advantage of the private sector, as the NAS 
suggests. My impression is that this remains an area of unrealized 
potential. Many very intelligent meteorologists have been drawn into 
the private sector in recent years, and NOAA would benefit from their 
expertise being utilized in urban meteorology issues.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                               Don Hermey
    Question 1. How does Manatee County make sure that residents with 
special needs--like our homebound or senior Floridians--are considered 
and accommodated during an emergency or severe weather event?
    Answer. Manatee County has a long standing special needs shelter 
program. The program includes a registry process which is managed by 
Manatee County Emergency Management. The Florida Department of Health 
in Manatee County supports the shelter with clinical staff. The 
registry process allows for clinicians to evaluate and organize for the 
supplies and materials that support our special needs clients in a 
shelter setting. The Manatee County Transportation Division and 
Emergency Medical Services Division assist with transportation to our 
shelters. The state of Florida has also created an early prescription 
refill mandate (Florida Statute 252.358) to assist those needing early 
prescription refills. This program is established in all 67 counties 
within the state of Florida. The program is currently being expanded to 
include a statewide registry. The information collected under the 
special needs shelter program is also extremely valuable to support and 
validate our overall emergency planning efforts for all segments of our 
community.

    Question 2. Weather information is only valuable to the extent that 
it is communicated effectively. You've got to know your audience to 
know how to give them the relevant information at the right time to 
make decisions. For example, describing a hurricane to a Floridian with 
hurricane shutters and a generator is one thing. Describing a similar 
storm to someone from New York would be very different. What kind of 
miscommunication have you seen and how has that harmed communities in 
decision-making?
    Answer. We have both international and Northern visitors as well as 
local residents with no direct storm experience who must be educated. I 
have seen old adjusted pictures posted on social media which are 
correlated to current events. The ability of any information regardless 
of its validity going viral is of paramount concern. This is both 
challenging and harmful as local emergency management agencies and 
National Weather Service Offices work to maintain and disseminate 
credible information. We have to work harder to establish the National 
Weather Service, National Hurricane Center, Storm Prediction Center and 
other services as the credible source for our country. Local National 
Weather Service Office personnel are an extremely important component 
of this communications process--they know the local geography, and 
population demographics--they can effectively translate the meteorology 
to local emergency managers who can apply it to their long-standing 
public information process. More visitors and residents die each year 
in Florida from non-tropical weather events such as rip currents and 
lightning. For example, in June, 2012 after Tropical Storm Debbie, two 
men are safely pulled ashore. In a second incident that same June of 
2012, a family of five was swept away. Four were saved and one later 
died ((Kimela Walker, 41 from Alabama) Natalie Watson, Times staff 
writer, Monday, June 16, 2014). According to the Florida Department of 
Environmental Protection, ``297 people died in Florida because of rip 
currents between 1999 and 2013.'' Another example of communications 
challenges would be the historical alignment of hurricanes with wind 
speed, which may or may not be a good indicator of the potential storm 
surge, and definitely doesn't tell you how much rain it is going to 
drop, or how many tornadoes it is going to spawn, etc. Although I don't 
recommend the NWS get away from scientific vernacular, we need to be 
cognizant of the impact those words have and develop products in a way 
that truly illustrates what will happen. We know that a large, slow-
moving tropical storm could have greater consequences than a compact, 
fast-moving Cat 2, but the Cat 2 is certainly going to get more 
attention.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                               Don Hermey
    Question 1. As NOAA is starting to distribute hurricane inundation 
maps this year, would it be valuable to have these maps transmitted by 
an improved Emergency Alert System to cars with HD Radio/navigation 
receivers that can display them?
    Answer. These maps are experimental and new. We need to foster 
education. We have not experienced an evacuation using this new tool 
for a proper evaluation. There are also some discrepancies between 
these tools and the local evacuation maps. The system will need to be 
managed in a safe manner. We do not want to cause motorists to not pay 
attention to the road or discredit local emergency information or 
instructions. Perhaps it could be more effective to tell a driver that 
they are located in an evacuation zone as determined by their local 
emergency management official, and direct them to the proper evacuation 
route. Car displays may also be the proper venue for things like flood 
warning and tornado warnings, as drivers may enter those areas unaware, 
and giving them that life safety information in a way that provides 
actionable recommendations.

    Question 2. In addition, would it be valuable to have these maps 
transmitted by an improved Emergency Alert System to smartphones that 
have TV reception capability and map apps? The ATSC is in process of 
defining a new digital TV system (ATSC 3.0) that would be better at 
broadcasting to smartphones.
    Answer. I agree there needs to be multiple venues to disseminate 
information. Resolution of data also needs to catch up to the various 
display systems. The establishment of a strategy with providers, end 
users and local decision makers becoming involved in the process may 
assist as technology expands. With all new venues, there needs to be a 
concerted coordinated effort with educational instructions on what 
actions the public should take to protect themselves and their 
families.

    Question 3. As both of the above methods would not require mass 
public downloads from the Internet, would they be a desirable 
alternative to only depending on websites?
    Answer. Effective warnings require multiple distribution venues to 
meet the demands of the various citizen demographics. Reliance on a 
single distribution method raises a concern for saturation and missing 
various demographic populations. Emphasizing ``push'' notifications 
like Wireless Emergency Alerts (WEA) and Emergency Alert System (EAS) 
that don't require the user to take a pro-active action to access or 
download ahead of time may be more successful for the intended targeted 
group.

    Question 4. New Jersey has more than 20 cities with populations 
exceeding 50,000 residents. Urban residents of New Jersey would greatly 
benefit from forecasts that address the unique qualities of urban 
landscapes. The National Academy of Sciences has suggested that 
existing weather models should be adapted to include higher spatial 
resolution and mesoscale modeling in order to increase the accuracy of 
forecasts in urban areas. What are the biggest observational and 
informational gaps that need to be filled in order to optimize urban 
meteorology?
    Answer. Urban meteorology is not my area of expertise. 
Understanding higher spatial resolution and mesoscale modeling is why I 
rely on the weather community and the National Weather Service. I 
understand that local observations of the lowest levels of the 
atmosphere are needed and research is underway. Perhaps new smaller 
radars that work in concert with the current and future national radar 
network can contribute to providing more data. From my perspective, the 
informational gap is the ability for people to understand what is 
forecast to happen at their exact location. If GPS can tell them when 
they will arrive, if they can get notified of a package arrival, can a 
weather forecast give pin point accuracy from block to block? I believe 
there is a need to migrate from large geographical weather modeling to 
specific details at the personalized level.

    Question 5. Are there any efforts within the weather industry to 
encourage data sharing or training of various end users on how to 
utilize existing weather data?
    Answer. I cannot speak to efforts within the weather industry. As 
an end user, I commend the National Weather Service, NOAA and the Storm 
Prediction Center for my emergency management team's education. My team 
and I have attended a number of their weather classes and educational 
trainings on their new products. Their outreach is paramount to solid 
decision making and information dissemination from my county level to 
our media. I would request enhancing funding for both technology and 
people so they may remain at the forefront of forecasting technology. 
Efforts to increase the number of course offerings nationwide should be 
considered. They also need the ability to deliver products in formats 
that allow 3rd party users to utilize and manipulate the data for 
interesting products that the private sector develops. If they are 
undermined as the definitive source for the raw data, we will have a 
difficult time getting the public to take action in the event of 
conflicting data.

    Question 6. How can existing weather data be better utilized to 
create, practical, ready-to-use products for urban end users?
    Answer. Enhancing coordination and communication with users to 
develop products and services will assist end users. Supporting 
additional staffing in the National Weather Service to assist with 
educational outreach to not only emergency managers, but also to 
behavioral scientist, traffic engineers and others will foster 
practical, ready to use products. We all want the best, most up-to-
date, accurate, and useful information possible. Emergency managers 
want the public to understand the consequences of the weather, and want 
the ability to provide the public with actionable information that will 
help them protect their lives and property.

                                  [all]

                 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
